<html>
<title> - LEGISLATIVE HEARING ON H.R. 3070, TO CLARIFY THAT FOR PURPOSES OF ALL FEDERAL LAWS GOVERNING MARINE FISHERIES MANAGEMENT, THE LANDWARD BOUNDARY OF THE EXCLUSIVE ECONOMIC ZONE BETWEEN AREAS SOUTH OF MONTAUK, NEW YORK, AND POINT JUDITH, RHODE ISLAND, AND FOR OTHER PURPOSES, ``EEZ CLARIFICATION ACT''; AND H.R. 4245, TO EXEMPT IMPORTATION AND EXPORTATION OF SEA URCHINS AND SEA CUCUMBERS FROM LICENSING REQUIREMENTS UNDER THE ENDANGERED SPECIES ACT OF 1973</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



    H.R. 3070, ``EEZ CLARIFICATION ACT''; AND H.R. 4245, TO EXEMPT 
  IMPORTATION AND EXPORTATION OF SEA URCHINS AND SEA CUCUMBERS FROM 
    LICENSING REQUIREMENTS UNDER THE ENDANGERED SPECIES ACT OF 1973

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE
                                 
                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       Tuesday, February 2, 2016

                               __________

                           Serial No. 114-29

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                __________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
98-457 PDF                    WASHINGTON : 2016                        
___________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4d5a456a495f595e424f465a0449454704">[email&#160;protected]</a>  
                    
                     
                    
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                
                                ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                                ------                                
                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, February 2, 2016........................     1

Statement of Members:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut, prepared statement on H.R. 3070......    34
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     2
        Prepared statement of....................................     2
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     5
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     3
    Pingree, Hon. Chellie, a Representative in Congress from the 
      State of Maine.............................................     6
    Poliquin, Hon. Bruce, a Representative in Congress from the 
      State of Maine.............................................     8
    Zeldin, Hon. Lee M., a Representative in Congress from the 
      State of New York..........................................     5

Statement of Witnesses:
    Leask, Joseph, Diver and Chairman, Maine Department of Marine 
      Resources, Sea Urchin Zone Council, Rockwood, Maine........    12
        Prepared statement on H.R. 4245..........................    13
    McBride, Joe, Legislative Representative, Montauk Boatmen & 
      Captains Association, East Hampton, New York...............    27
        Prepared statement on H.R. 3070..........................    28
    McMurray, John, Owner, One More Cast Charters, Oceanside, New 
      York.......................................................    24
        Prepared statement on H.R. 3070..........................    26
    Morris, Daniel, Deputy Regional Administrator, Greater 
      Atlantic Regional Fisheries Office, National Marine 
      Fisheries Service, Gloucester, Massachusetts...............    21
        Prepared statement on H.R. 3070..........................    22
    Tamaki, Atchan, Founder, ISF Trading Inc., Portland, Maine...    17
        Prepared statement on H.R. 4245..........................    19
    Woody, William, Chief, Office of Law Enforcement, U.S. Fish 
      and Wildlife Service, Washington, DC.......................    14
        Prepared statement on H.R. 4245..........................    15

Additional Materials Submitted for the Record:
    Congress of the United States, House and Senate Delegation of 
      Connecticut, Letter in opposition of H.R. 3070.............    35
    Gilbert, Joseph, Southern New England Fishermen and 
      Lobstermen's Association, Letter in opposition of H.R. 3070    36
    Klee, Robert J., Commissioner, Connecticut Department of 
      Energy & Environmental Protection, Letter in opposition of 
      H.R. 3070..................................................    38
                                     


 
 LEGISLATIVE HEARING ON H.R. 3070, TO CLARIFY THAT FOR PURPOSES OF ALL 
   FEDERAL LAWS GOVERNING MARINE FISHERIES MANAGEMENT, THE LANDWARD 
BOUNDARY OF THE EXCLUSIVE ECONOMIC ZONE BETWEEN AREAS SOUTH OF MONTAUK, 
NEW YORK, AND POINT JUDITH, RHODE ISLAND, AND FOR OTHER PURPOSES, ``EEZ 
     CLARIFICATION ACT''; AND H.R. 4245, TO EXEMPT IMPORTATION AND 
      EXPORTATION OF SEA URCHINS AND SEA CUCUMBERS FROM LICENSING 
         REQUIREMENTS UNDER THE ENDANGERED SPECIES ACT OF 1973

                              ----------                              


                       Tuesday, February 2, 2016

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Gosar, Graves, Bishop; 
Huffman, Costa, and Lowenthal.
    Also present: Representatives Poliquin, Zeldin; Courtney, 
and Pingree.
    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order. The subcommittee meets today to hear 
testimony on H.R. 3070, sponsored by Mr. Zeldin, and H.R. 4245, 
sponsored by Ms. Pingree.
    Under Committee Rule 4(f), any oral statements at hearings 
are limited to the Chairman and the Ranking Minority Member, 
and the Vice Chair and a designee of the Ranking Member. This 
will allow us to hear from our witnesses sooner, and help 
Members keep to their schedules.
    Before we begin, I ask unanimous consent that Mr. Zeldin, 
Ms. Pingree, Mr. Poliquin, and Mr. Courtney be allowed to join 
us on the dais and participate at the appropriate time in the 
hearing, if their time permits.
    [No response.]
    Dr. Fleming. Hearing no objection, so ordered.
    Now I yield myself 5 minutes to make my opening statement.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. The subcommittee meets today to consider two 
bills that promote commercial and recreational fishing access 
and help provide more seafood availability for domestic and 
international seafood customers and consumers. Both of these 
bills make common-sense adjustments to Federal law to correct 
regulatory nightmares and inconsistencies. It is my hope that 
the agencies before us today are willing to work with us on 
solutions.
    H.R. 3070, introduced by our colleague, Lee Zeldin from New 
York, corrects a unique navigational issue in Block Island 
Sound, off the coasts of Long Island and Rhode Island. As we 
will hear today, this small strip of federally controlled 
waters poses regulatory confusion for fishermen who are trying 
to abide by both state and Federal fisheries laws, but are 
challenged by navigational boundaries that are not visually 
apparent around Block Island.
    Mr. Zeldin's legislation, which has bipartisan beginnings 
since a prior bill was introduced by his predecessor, makes a 
small adjustment to the Federal/state water boundaries to 
resolve this fisheries management issue.
    The second bill we will consider today is H.R. 4245, 
introduced by our Maine colleagues, Chellie Pingree and Bruce 
Poliquin. This bipartisan bill exempts two species from the 
U.S. Fish and Wildlife Service's seafood licensing 
requirements, a correction that has been supported by the 
National Marine Fisheries Service.
    This is a classic case of where the left arm of the Federal 
Government is acting against the wishes of the right arm. This 
inconsistency has nothing to do with making seafood safer, but 
it has a lot to do with feathering an agency's nest with import 
and export fees that are passed on to the consumer, or result 
in delayed or even spoiled shipments.
    It is my hope that today we can work with the U.S. Fish and 
Wildlife Service on a path forward to correct this 
inconsistency with these species, as well as squid and octopus. 
This, too, is a bipartisan problem that deserves a solution.
    We will hear more about these bills from the experts we 
have before us today. I want to welcome our non-committee 
colleagues and the witnesses for being here. I look forward to 
hearing from all of you today, and learning more about these 
important issues.
    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans
    The subcommittee meets today to consider two bills that promote 
commercial and recreational fishing access and help provide more 
seafood availability for domestic and international seafood consumers. 
Both of these bills make common-sense adjustments to Federal law to 
correct regulatory nightmares and inconsistencies. It is my hope that 
the agencies before us today are willing to work with us on solutions.
    H.R. 3070, introduced by our colleague Lee Zeldin from New York, 
corrects a unique navigational issue in Block Island Sound, off the 
coasts of Long Island and Rhode Island. As we will hear today, this 
small strip of federally-controlled waters poses regulatory confusion 
for fishermen who are trying to abide by both state and Federal 
fisheries laws but are challenged by navigational boundaries that are 
not visually apparent around Block Island. Mr. Zeldin's legislation, 
which has bipartisan beginnings since a prior bill was introduced by 
his predecessor, makes a small adjustment to the Federal/state water 
boundaries to resolve this fisheries management issue.
    The second bill we will consider today is H.R. 4245, introduced by 
our Maine colleagues Chellie Pingree and Bruce Poliquin. This 
bipartisan bill exempts two species from the U.S. Fish and Wildlife 
Service's seafood licensing requirements--a correction that has been 
supported by the National Marine Fisheries Service.
    This is a classic case of where the left arm of the Federal 
Government is acting against the wishes of the right arm. This 
inconsistency has nothing to do with making seafood safer, but it has a 
lot to do with feathering an agency's nest with import and export fees 
that are passed on to the consumer or result in delayed or even spoiled 
shipments.
    It is my hope that today we can work with the U.S. Fish and 
Wildlife Service on a path forward to correct this inconsistency with 
these species, as well as squid and octopus. This, too, is a bipartisan 
problem that deserves a solution.
    We will hear more about these bills from the experts we have before 
us today. I want to welcome our non-committee colleagues and the 
witnesses for being here. I look forward to hearing from all of you 
today and learning more about these important issues.

                                 ______
                                 

    Dr. Fleming. The Chair now recognizes the Ranking Member, 
Mr. Huffman, for his statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman. Good morning, and 
thanks to my colleagues from Maine, New York, and Connecticut 
for coming to educate us on the bills before the subcommittee 
today.
    But, first I want to put in a little plug for California 
uni, also known as ``California Gold,'' much of which is 
harvested off the coast of my district. The sea urchin fishery 
in my state is actually thriving. It supports 200 commercial 
divers, generates roughly 10 million in dockside sales, and 
provides our restaurants and others around the world with a 
product that many people say is delicious. I'm not one of them.
    [Laughter.]
    Mr. Huffman. But the fishery is thriving, and it appears to 
be a very sustainable fishery. I am interested to hear about 
the sea urchin fishery in Maine, to see if we can help you 
folks be more like California.
    [Laughter.]
    Mr. Huffman. But in all seriousness, we do want to better 
understand the issues that are reflected in H.R. 4245. We want 
to learn from the Fish and Wildlife Service about its role in 
inspecting product that is destined for the export market.
    I am also eager to hear from our witnesses today on the 
other bill, H.R. 3070. I think of striped bass on the East 
Coast much the same way as I think of Chinook salmon back home 
in California. Obviously, an iconic species which has, at 
times, supported legendary commercial and recreational 
fisheries; but also a species that faces a lot of challenges.
    Both of these fish live at sea but spawn in rivers. They 
are anadromous, so they spawn where there is pollution, habitat 
degradation, and other factors that make reproduction a 
constant struggle. Both are highly sought after, obviously, as 
food and sport, to the point that demand, apparently, will 
always outstrip supply. For those reasons, careful, 
conservative--yes, you heard that word from me--management is 
just as important for striped bass as it is for salmon on the 
Pacific Coast.
    Unfortunately, the Atlantic striped bass fishery is not 
doing very well. The best available science showed that the 
stock was on the brink of becoming overfished in 2013. That 
required the Atlantic States Marine Fisheries Council to reduce 
striped bass harvest by more than 20 percent beginning last 
year. That is a shame, because it negates a lot of good work 
that was done to rebuild this stock between the mid-1980s and 
the mid-2000s. And I am, frankly, puzzled why the Majority did 
not invite someone from the Atlantic Council to testify today, 
given that it is that body and not NOAA that is responsible for 
striped bass management.
    Nevertheless, one of the keys to rebuilding striped bass 
populations the first time around was the moratorium on harvest 
in the exclusive economic zone, or the EEZ. Stripers face 
intense fishing pressure close to shore, and that area beyond 3 
miles is the only true refuge that they have. It has been an 
effective refuge, one that has the support of most 
stakeholders. This was evidenced by the fact that in 2006, when 
there was a proposal to open the EEZ to striped bass fishing, 
97 percent of the commenters opposed that proposal.
    This bill would not only open an area of the EEZ, but would 
also continue a disturbing trend of Congress ceding to states 
Federal waters which belong to all Americans. Not only is this 
unnecessary and inappropriate, it will also have unintended 
consequences which will make things worse for fishermen, not 
better.
    An ill-conceived appropriations rider recently extended 
state jurisdiction for fisheries management from 3 to 9 miles 
off Louisiana, Mississippi, and Alabama. That move, we know, 
was intended to create more access to the red snapper fishery. 
But it will likely result in the complete closure of Federal 
waters in the Gulf of Mexico to snapper fishing, as the entire 
quota is going to be consumed in state waters.
    In the example before us today, divvying up part of the EEZ 
between New York and Rhode Island would leave Connecticut 
commercial fishermen, including the state's lobstermen, out in 
the cold because those states prohibit them from setting pots 
in their waters. I think we will hear some more about that from 
my colleague, Joe Courtney.
    Further, this bill, as written, would actually transfer a 
significant portion of the state waters around Block Island and 
a piece of that island itself from state to Federal management. 
Given those issues and the fact that anglers are already 
permitted to transport striped bass caught in state waters 
around Block Island through the EEZ, I am skeptical that this 
bill is ready for prime time.
    But I do look forward to hearing from the witnesses today. 
I thank you, Mr. Chairman, and I yield back.
    Dr. Fleming. Let me say I, for one, am glad the Ranking 
Member is moving in a conservative direction, as incremental as 
it is.
    [Laughter.]
    Dr. Fleming. With that, the Chair now recognizes Dr. Gosar.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Mr. Chairman, for holding today's 
hearing.
    Although my home state of Arizona contains blue ribbon 
trout fisheries due to the cold water produced by multi-purpose 
dams, it is not generally known as the fishery capital of the 
world. Wait for those sand sharks, that might be something. So, 
you might wonder why I should care about the two bills 
introduced by my colleagues from New York and Maine.
    Here is why. Today's bills are solutions aimed at 
modernizing and eliminating outdated Federal regulations. Mr. 
Zeldin's bill, H.R. 3070, attempts to reduce regulatory 
confusion that may unintentionally make criminals out of law-
abiding striped bass fishermen. A simple boundary change, as 
outlined in the bill, would help alleviate this problem.
    Testimony submitted against this legislation unfortunately 
appears apocalyptic and fearful of any change. Federal laws and 
regulations are not sacrosanct, and must be updated when 
necessary.
    I commend Mr. Zeldin for his leadership on this issue. It 
is my hope that we can resolve this matter, and this bill, as 
much as needed, is a first step in that direction.
    The bill authored by Ms. Pingree and Mr. Poliquin is a 
bipartisan effort to right a bipartisan wrong. In regulations 
created by an outgoing George W. Bush administration and 
carried on by this Administration, the U.S. Fish and Wildlife 
Service has imposed unnecessary fees and duplicative and costly 
inspection requirements on what was once a growing industry 
that aims to export niche seafood to overseas markets. Even the 
National Marine Fisheries Service, a bastion of Federal 
regulatory growth, disagrees with its sister agency on this 
matter.
    The stories of spoiled food shipments, loss of jobs, and 
bureaucratic indifferences embody the arrogance of an agency 
gone wild. This bill preserves and promotes jobs.
    I thank the witnesses for being here today, and look 
forward to working with these legislative proposals. With that, 
I yield back. Thank you, Mr. Chairman.
    Dr. Fleming. The gentleman yields back.
    Our first panel of the day will include some of our 
colleagues. First we will hear from Mr. Zeldin of New York on 
H.R. 3070. Then we will hear from Ms. Pingree and Mr. Poliquin, 
both from Maine, on H.R. 4245.
    Each of you will be recognized for up to 5 minutes. And we 
will begin with Mr. Zeldin.
    You are recognized, sir.

   STATEMENT OF THE HON. LEE M. ZELDIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Zeldin. Thank you, Mr. Chairman. And I want to thank 
you for giving H.R. 3070, the ``EEZ Clarification Act,'' a 
hearing in this subcommittee. I also want to thank Chairman 
Bishop, Subcommittee Ranking Member Huffman, and Congressman 
MacArthur for coming to my district in December for an 
oversight hearing addressing important issues facing Long 
Island fishermen. That field hearing was an important 
opportunity for this body to hear firsthand the issues faced by 
my constituents, who rely upon fishing as a way of life. The 
EEZ Clarification Act addresses one of those major concerns, so 
thank you to the Chairman for putting this on this morning's 
agenda.
    Long Island's anglers and boatmen are in urgent need of a 
clarification on the boundary of the Exclusive Economic Zone, 
or EEZ, between Montauk Point, New York, and Block Island, 
Rhode Island. Since 1990, striped bass fishing has been banned 
in the EEZ. But what works for fishery management at 30 or 300 
miles off the coast is rarely what works in local waters. To 
put it simply, law-abiding, responsible fishermen should not be 
punished for doing their jobs.
    The unique geography of our region means that making the 
15-mile journey via boat from Montauk Point to Block Island 
requires passage through a small strip of waters considered 
part of the EEZ. For recreational anglers or charter boat 
captains, this shift in jurisdiction can mean the difference 
between a nice day on the water and committing a Federal 
offense.
    A recreational angler or charter boat captain on the water 
off of Montauk Point, New York could easily go from fishing 
legally and responsibly in state waters to violating Federal 
law once they pass over this arbitrary boundary. Many of these 
individuals lack the expensive GPS technology to know if and 
when they have crossed the boundary, and there are no buoys to 
warn them. These are responsible men and women who have the 
greatest vested interest in preserving the striped bass 
fishery, but they also desperately need relief from arbitrary 
government regulations.
    The EEZ Clarification Act in no way lifts the ban on 
fishing for stripers in the EEZ. What it does is clarify for 
fishery management purposes the boundary of the EEZ, and puts 
the area between Montauk and Block Island under the 
jurisdiction of the states and the Atlantic States Marine 
Fisheries Commission. Restoring local jurisdiction over striped 
bass fishing in this limited area means that sound science and 
current data will be utilized to make the appropriate fishery 
management decisions.
    It is also imperative that in any reform affecting these 
waters we protect the access of all anglers who are already 
fishing there. I am committed to working with our Connecticut 
and Rhode Island neighbors to ensure this. This legislation is 
about increasing access and local control, not restricting it. 
I yield back.
    Dr. Fleming. I thank the gentleman.
    The Chair now recognizes Ms. Pingree for 5 minutes.

  STATEMENT OF THE HON. CHELLIE PINGREE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Ms. Pingree. Thank you very much, Chairman Fleming, and 
thank you, Ranking Member Huffman. I appreciate very much your 
having this hearing today, and I am glad to be here with my 
colleagues. I appreciate that Ranking Member Huffman is 
familiar with the species we are talking about. I will say that 
Maine is kind of a provincial state. We don't usually say we 
want to be more like California. But I appreciate your 
familiarity, even if you don't enjoy consuming these.
    Thank you to all the other distinguished members of the 
committee who are taking the time to be here today. I am very 
honored for this opportunity to discuss H.R. 4245, a bill that 
I recently introduced along with my colleague from Maine, who 
is here with me today. Representative Poliquin and I constitute 
the entire Maine House delegation. We are happy to be here.
    Last fall I was contacted by the Maine Sea Urchin and Sea 
Cucumber Association, which includes eight processors and 
shippers of these species in the Gulf of Maine. As some of you 
here may not know, sea urchins are imported from Canada to 
processors in Maine, but they are also harvested in the Gulf of 
Maine and, once processed, are sent overseas to a large 
consumer market in Asia.
    The industry has voiced their concerns to me and to 
Congressman Poliquin regarding the fact that their members are 
being required to give inspection agents 48 hours' notice of 
their shipment coming to the port, to obtain a Federal import/
export license, and pay fees. Of great concern is that the 
inspectors are actually causing delays in the shipment of this 
highly perishable product, which has about a 10-day shelf life. 
The value is usually between $5,000-$15,000, so that is a 
critical issue. And that shelf life is from when they come out 
of the water to reaching someone's dinner table across the 
globe. We, in my office, have been working tirelessly on this 
issue over the past 14 months, and have reached out to the U.S. 
Fish and Wildlife Service.
    And I do want to say, in spite of some of the concerns that 
have been raised, I want to be on record that we have had an 
open and honest line of communications with the U.S. Fish and 
Wildlife Service from Director Ashe and his staff at the 
headquarters in DC to the wonderful folks at their regional 
office in the Northeast. I have really appreciated their 
efforts on this issue.
    But the reality is, despite a year of effort, I am still 
hearing about the requirements and the delays that the sea 
urchin processors are facing. That is why I urge the committee 
to bring up H.R. 4245 before the committee for a markup, and to 
the House Floor for a vote.
    There is a shellfish exemption that dates back to the 
1970s, and that allows shellfish to be imported and exported 
without Fish and Wildlife Service inspection. It is my 
understanding that there is no particular risk sea urchins are 
posing that makes sea urchins and sea cucumbers require 
inspection before the export.
    The goal of my bill is simply to put echinoderms, which is 
the scientific term for sea urchins and sea cucumbers, on the 
same standing as other edible marine species who enjoy this 
exemption, such as lobsters, clams, mussels, and scallops.
    Again, these are live and perishable shipments. Even though 
we have been told that the Fish and Wildlife Service gives 
those their first priority, with stretched budgets, staffing 
limitations, I know that it is still taking too long for the 
shipments to be inspected and released.
    In particular, just this past weekend I heard about a 
problem that the processors in Maine were facing which is 
similar to many stories that I have heard. Even though it is my 
understanding that this particular shipment was not a 
perishable product, it was dried, this past Sunday a sea 
cucumber product was delayed an extra 5 days at the JFK 
airport. When processors are trying to get their product across 
the world for consumption, as you can imagine, every day 
counts.
    There is also a 48-hour notice period that the processors 
are required to give the Fish and Wildlife Service before the 
product will be inspected. That adds 2 days automatically to 
the timeline for the product to leave the United States. And 
although that 48-hour requirement, I am told, is typical for 
inspection, for this species it is added on top of other 
unreasonable delays.
    I also want to mention that it is an unpredictable fishery. 
We have a lot of bad weather days in Maine, so fishermen don't 
always know when they are going out to fish. The processors 
don't always know when the urchins will be coming in. So, it is 
not as if they can make a lot of plans about how this is going 
to happen, which makes this even more critical to the fishermen 
who are on the boats and the processors, as well.
    H.R. 4245 is very clear to state that if urchins or 
cucumbers are ever threatened or endangered under the ESA, the 
exemption in the bill would not apply. But that is not the case 
now. These shipments are being inspected with good reason, and 
the process is putting this industry at risk.
    Just to reinforce, the harvesters and processors of these 
sea urchins represent a critical part of Maine's fishing 
industry. We are, of course, known for our lobster and other 
delicious seafood, but also our very vibrant working waterfront 
communities. The regulations that have been recently imposed on 
the sea urchin and sea cucumber industry are impacting them and 
600 Mainers who rely on this industry for their families and 
their livelihoods.
    Again, I urge the committee to make sea urchins exempt from 
inspection, as shellfish currently are, by passing this 
legislation.
    Thank you very much for this hearing today and for taking 
the time to hear our testimony.
    Dr. Fleming. I thank the gentlelady.
    Mr. Poliquin, you are recognized for 5 minutes.

   STATEMENT OF THE HON. BRUCE POLIQUIN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Mr. Poliquin. Thank you very much, Mr. Chairman and Ranking 
Member Huffman, for holding this hearing. I appreciate it very 
much. And I want to thank you very much for responding so 
quickly to my letter to put this hearing together.
    All of us here in the House spend a lot of time talking 
about spending, national debt, national security, and keeping 
our families safe. However, this issue is an issue of fairness 
and compassion. Ms. Pingree and I, in this case, we represent 
about 650 very hard-working, honest Mainers up and down the 
coast. And I am very, very grateful for you taking this time to 
hear our plea.
    When you catch lobsters, you catch them in a trap; when you 
harvest clams, you dig them out of the flats; and you drag for 
scallops. But when you harvest sea urchins and sea cucumbers, 
for the most part, you have to dive for them.
    Mr. Leask is going to be testifying soon. He is one of our 
great urchin divers from down east Maine. Fellows like this get 
up very early in the morning, strap on tanks, and go in dark, 
cold water at tremendous risk to their own personal safety, as 
the folks do out in California, I am sure, but the water out 
there, Mr. Huffman, is much warmer. We understand that. We are 
much more rugged in the state of Maine.
    But in any event, in the state of Maine we have two zones. 
The first zone, which is in the southern part of the coast that 
Congresswoman Pingree represents, has only about a 15-day 
harvest period per year. The second zone that I represent, 
which is further down east, has about 38 days per year. So, it 
is a very short period of time that these folks, these 650 
folks that harvest and also process, have to make this part of 
their living. And a lot of these folks are lobstermen who 
supplement their income in the off-season by diving for 
urchins.
    Now, as Congresswoman Pingree just mentioned, this is a 
very perishable critter. You cannot have these cucumbers and 
urchins sitting in a warehouse or on a tarmac somewhere, while 
having a problem. So, think about someone that goes and dives 
down east Maine, has to get the product on the boat, has to get 
the boat to the dock, has to get it off the dock into a truck, 
down to Portland, processed there, back out of the facility, on 
a truck, down to JFK, and then fly the critters from JFK to 
Hong Kong and Asia, or wherever else they might be.
    The good news is that we already have the state of Maine, 
the folks at the Department of Marine Resources, who already 
are inspecting these critters, and also making sure that they 
are safe. And I might also add, Mr. Chair, that every year 
there is a survey dive right in our district. So, we get folks 
from Maine going under water, rather, to make sure we are not 
overfishing this terrific part of our fishery in Maine.
    Now, here are a couple of concerns I have. Back in 
November, we had a shipment going out of Portland that went 
down to JFK and was sitting on a pallet. Each of these 
shipments, as Ms. Pingree said, are in the neighborhood of 
$15,000-$20,000 per shipment, and represents a lot of hard work 
from fellows like this. Now it is sitting on a pallet waiting 
to go on a plane, where the space has been reserved, and the 
airfare has been purchased. And the folks from Fish and 
Wildlife come in and yank it off. They yank it off because they 
haven't inspected it yet. Then they take the next day off 
because they are hanging out at Veterans Day parades, or 
whatever they are doing. This is a perishable foodstuff that 
needs to get to market as quickly as we can.
    Just last week, as Ms. Pingree mentioned, there was another 
example of a shipment sitting down at JFK that was pulled, and 
it was 5 days they were told before it could be inspected. 
Thank goodness the processor was able to sell it domestically. 
That is absolutely unacceptable, in my opinion. It is unfair to 
the people who are working really hard to provide for their 
families and to provide folks around the world this tremendous 
delicacy from Maine and California.
    I believe this is all about compassion and fairness. We 
already have an inspection process in Maine, and it works. 
There is absolutely no reason why the Feds need to get involved 
in this. It is working just fine, as far as the health of the 
fishery, as far as getting this product to market quickly. It 
is all about these 650 individuals that, under great peril, 
produce this product, and then harvest this product, and then 
get it to market.
    So, with that, I ask you please, please, for your 
consideration, to support this bill. It is a good bill, it 
protects jobs, and it is all about fairness and compassion to 
our people in Maine.
    Thank you very much, Mr. Chair.
    Dr. Fleming. I thank the gentleman. And if there are any 
questions on the dais, speak up. Otherwise, I will be--oh, we 
do have a question. Yes, the Chairman has a question.
    The Chairman. Yes, a couple of them, very quickly.
    Mr. Zeldin, thank you for being here with your bill. It 
looks rational. And the most important part is you only took 2 
minutes of your 5 minutes.
    [Laughter.]
    The Chairman. That is a good quality. We don't get that 
here very often.
    Ms. Pingree, you said you had already contacted the Fish 
and Wildlife Service a year ago on this issue. Is that 
accurate?
    Ms. Pingree. Yes, it is, Mr. Chair.
    The Chairman. And to date there has been no satisfactory 
result of that?
    Ms. Pingree. Yes.
    The Chairman. All right. So, Mr. Poliquin, you also said 
the state of Maine is inspecting this.
    Mr. Poliquin. Yes, Mr. Chairman.
    The Chairman. The 48-hour delay that you talked about, that 
is standard in almost all inspections that are done on the 
Federal level?
    Mr. Poliquin. I believe so, sir. It is a 48-hour notice, 
yes.
    Ms. Pingree. They have to give notice to the inspectors to 
guarantee that they will appear there, but it does not always 
work with our timing, as Representative Poliquin----
    The Chairman. So, what you are saying is, especially with 
this species, that is really an ugly species----
    Mr. Poliquin. That is a matter of opinion, Mr. Chairman.
    [Laughter.]
    The Chairman. No, Bruce, that is not a matter of opinion; 
that is ugly. But anyway----
    Mr. Poliquin. We are all God's creatures.
    The Chairman. One size fits all just does not always fit 
all.
    Mr. Poliquin. That is correct.
    The Chairman. I appreciate you bringing these bills to our 
attention. They are good bills; I hope we can move them as 
quickly as possible. Thank you for being here.
    Mr. Poliquin. Thank you, sir. I appreciate it very much.
    Dr. Fleming. OK, the Chairman yields back. Anyone else? 
Yes?
    Mr. Costa. Thank you very much. I appreciate the bipartisan 
effort on the legislation from our colleagues from Maine.
    The efforts that you have made in trying to move the U.S. 
Fish and Wildlife Service to understand the nature of this 
perishable commodity or these products, I suspect, based on 
your testimony, has been nothing less than frustrating.
    Ms. Pingree. Well, I would say we don't exactly see eye to 
eye on it. And, on the inspection side, I am certainly very 
sympathetic to the fact that they have a lot of things that 
they have to inspect. And, frankly, the way I look at it, 
they----
    Mr. Costa. But under that understanding, wouldn't it be 
cause to prioritize, and this is a commercial product that is 
already being covered at the state level? Common sense would 
tell you that the U.S. Fish and Wildlife Service ought to be 
prioritizing their efforts.
    Ms. Pingree. I guess that is the way I look at it, that 
they have plenty of endangered species that they do need to 
watch out for. It is very unlikely someone is going to sneak an 
endangered species in a box of urchins that is valuable in and 
of itself, and they want it to get right to the customer. So, 
it seems to me this does not need to be their highest priority.
    And also, since we exempt some----
    Mr. Costa. And custom agents also have the responsibility 
in this country, as products both coming in and going out, to 
deal with material that might be being used to avoid 
inspection, or to avoid our custom loss. Right?
    Ms. Pingree. They are subject to a Customs inspection, as 
well.
    Mr. Costa. Right. It is a classic over-reach. And this 
common-sense legislation that you are providing from the good 
citizens of Maine is an attempt to try to deal with this over-
reach.
    Ms. Pingree. Particularly since other shellfish are exempt, 
so this is kind of uniquely set aside when lobsters and clams 
are not.
    Mr. Costa. So, it is consistent with that. Has the U.S. 
Fish and Wildlife Service opined on this legislation?
    Ms. Pingree. We have had some communication back and forth, 
and do not necessarily see eye to eye as to why this should be 
an equivalent species----
    Mr. Costa. Are they officially opposing it, or are they 
neutral on it?
    Ms. Pingree. I think they will; so far we have not been 
able to come to an agreement.
    Mr. Costa. You are probably going to save them some money, 
as well, I would suspect, if they are no longer required to 
provide the inspection.
    Ms. Pingree. That is true.
    Mr. Costa. Yes. Well, I support the legislation, Mr. 
Chairman. I think bipartisan efforts like this are important, 
and I think we ought to move the legislation forward.
    Mr. Zeldin, I am somewhat familiar with Block Island and a 
bit of the zone because I have friends who have places there 
and I like to sail in that area, but I am reminded of your 
efforts here to try to deal with a host of species that we have 
throughout the continental United States, as we try to save 
species that are listed, including those that are either native 
or non-native.
    We have a striped bass population in California, as was 
noted by my colleague, that is not native, was introduced into 
California waters in 1879 from the state of New Jersey, and it 
has had up-and-down cycles. It is not faring as well these days 
as some would like. But it also competes against native 
species, and trying to get it right, or us trying to be Mother 
Nature, I find frustrating and conflicting.
    I had, anecdotally, some friends who took some of the 
members of the San Francisco Giants fishing a year ago for 
striped bass in the delta. Within a 2-hour period, they had 110 
strikes and were letting them go because they were trying to 
determine which was the largest size they could catch under the 
limits. Yet these non-native species that were introduced in 
1879 are an attractive sports fish, clearly, and I think 
scientists have indicated--compete for native species in 
California.
    With climate change, as we try to rework the way of the 
world, I think we need to sit back and determine what makes 
sense and what doesn't make sense, especially when we see that 
the native species are really having very, very difficult 
problems in the case of salmon in California.
    So, I am sympathetic to your efforts in trying to figure 
out, Mr. Zeldin, how we get this right. And clearly, you 
haven't gotten it right in New York, and we haven't gotten it 
right in California or Connecticut. So good luck.
    Dr. Fleming. OK, the gentleman from California yields. Any 
other questions?
    [No response.]
    Dr. Fleming. OK, the panel is excused. Thank you so much 
for your valuable testimony today. We will ask the second panel 
to go ahead and take their place.
    As the next panel moves forward, I will begin to introduce 
them.
    First is Mr. Joe Leask, Diver and Chairman of Maine's 
Department of Marine Resources, Sea Urchin Zone Council from 
Rockwood, Maine; next is Mr. William Woody, Chief of the Fish 
and Wildlife Service's Office of Law Enforcement, based in 
Washington, DC; Mr. Atchan Tamaki, Founder of ISF Trading in 
Portland, Maine; Mr. Daniel Morris, the Deputy Regional 
Administrator with the National Marine Fisheries Service for 
the Greater Atlantic Region, based in Gloucester, 
Massachusetts; Captain John McMurray, Owner of One More Cast 
Charters in Oceanside, New York; and, finally, if we can find 
room, Captain Joe McBride, Legislative Representative of the 
Montauk Boatmen & Captains Association from East Hampton, New 
York.
    Let me remind the witnesses that, under Committee Rules, 
they must limit their oral statements to 5 minutes, but their 
entire statement will appear in the record.
    When you begin, the light will be green. After 4 minutes of 
testimony, it will turn yellow. That is a caution light, of 
course. When it turns red, if you have not already ended your 
statement, we ask that you quickly end it. Otherwise, I will 
have to gavel. And I would rather you end it on your terms, 
rather than mine. But having said that, no matter how long it 
is, it will be entered into the written statement. Then, 
afterwards, we will have questions.
    I now recognize Mr. Joe Leask, Diver and Chairman of 
Maine's Department of Marine Resources, Sea Urchin Zone Council 
for his testimony.
    You have 5 minutes.

STATEMENT OF JOSEPH LEASK, DIVER AND CHAIRMAN, MAINE DEPARTMENT 
 OF MARINE RESOURCES, SEA URCHIN ZONE COUNCIL, ROCKWOOD, MAINE

    Mr. Leask. Thank you, Mr. Chairman. To my understanding, we 
are actually going to start with a CNN video that was done. It 
would help people that haven't seen the sea urchin process 
actually see what goes on underwater.
    [Video shown.]
    Mr. Leask. Are we holding other hearings, cancer and what 
not? That would probably be better.
    Well, it seems I only have a minute left, and I am not 
known for being brief. I will do my best. As Chairman of the 
Maine Sea Urchin Zone Council, we work closely with the 
Department of Maine Resources to not only monitor, but to 
really work hard at increasing our biomass.
    In Maine, our urchin populations are actually rebounding 
and growing. And I have personally pioneered stateside, as far 
as I know, ways of farming urchins. I have had great success 
bringing urchin populations back in areas that never, or that 
haven't had them for many years. I have much evidence on my own 
Web site to that end.
    This inspection process right now is what we are here for. 
It is hard on our bottom line. In simplicity, it takes money 
out of a pocket which takes money out of my pocket. We regulate 
the urchins in Maine strictly. Log books are kept, log books 
are filed with the state; you cannot get a license unless you 
fill these log books out every year.
    The process of tracking them is really good, in simplicity. 
I don't want to really elaborate on that, but it is. I can give 
you more information, but as I am known to go way beyond my 
talking time, I will cut it off here and be glad to field 
questions.
    [The prepared statement of Mr. Leask follows:]
   Prepared Statement of Joseph Leask, Chairman, Maine Department of 
         Marine Resources, Sea Urchin Zone Council on H.R. 4245
    My name is Joseph Leask. I am the Chairman of the State of Maine 
Sea Urchin Zone Council. I have been a sea urchin diver for 25 years. I 
am also a cucumber diver. I have at times been the common pool 
representative to the New England Management Fisheries Council. I am 
the Captain and owner of the fishing vessel, November Gale, a trawler 
from Portland, Maine. I have trawled for 20 years. I also own Misty 
Morning Cottages, year round vacation rentals right on the shores of 
Moosehead Lake.
    In my position as Chairman of the State of Maine Sea Urchin Zone 
Council, I chair the council which works closely with the State of 
Maine Department of Marine Resources to regulate our industry. We set 
seasons, promote safety, work to increase biomass, while preparing for 
the addition of new entrants to the fishery.
    The sea urchin and sea cucumber industry has been stable and slowly 
growing. The sea urchin biomass is growing, an experimental sea 
cucumber harvest has been implemented, and our domestic market has 
grown greatly. In the near future there will be new jobs added in this 
industry. The State of Maine Sea Urchin Zone Council and DMR are 
currently preparing for these new entrants.
    In recent years, we have implemented strict catch limits. Log books 
for both harvesters and buyers are mandatory. These catch reports must 
be filed with the state of Maine before urchin harvesting licenses are 
renewed. Strict monitoring is kept by the State of Maine Department of 
Marine Resources.
    Recently an item of great concern has increasingly affected sea 
urchin and sea cucumber harvesting. Our American caught product 
competes globally. The Department of Inland Fish and Wildlife now 
inspects all shipments of sea urchins and cucumbers from this country. 
This process hinders shipments. The highly perishable seafood depend on 
immediate shipment for best quality. Any delay sending these fresh 
seafood products from New York to Japan is costly and potentially 
harmful to consumers. In addition these inspection costs are passed on 
to harvesters and buyers alike. This results in lower wages for state 
of Maine fisherman and lower profits for small businesses. In some 
cases it could jeopardize market position resulting in the loss of that 
market to foreign competition as well as the loss of jobs.

                                 ______
                                 

    Dr. Fleming. OK. Thank you, Mr. Leask, for your testimony.
    Now I recognize Mr. William Woody, Chief of the U.S. Fish 
and Wildlife Service's Office of Law Enforcement.

 STATEMENT OF WILLIAM WOODY, CHIEF, OFFICE OF LAW ENFORCEMENT, 
         U.S. FISH AND WILDLIFE SERVICE, WASHINGTON, DC

    Mr. Woody. Good afternoon, Chairman Fleming, Ranking Member 
Huffman, and members of the subcommittee. I am William Woody, 
Chief of Law Enforcement for the U.S. Fish and Wildlife 
Service. I appreciate the opportunity to testify before you 
today on H.R. 4245, which would exempt the import and export of 
sea urchins and sea cucumbers from licensing requirements under 
the Endangered Species Act.
    The Service is the primary Federal agency responsible for 
enforcing U.S. laws and treaties that address international 
trafficking and protect U.S. and foreign species from 
unsustainable trade. The Office of Law Enforcement has a 
workforce comprised of special agents and wildlife inspectors. 
This workforce is relatively small, compared to the volume of 
wildlife trade and crimes they are tasked to monitor and 
investigate.
    The Service's 125 inspectors work at major ports across the 
Nation to check inbound and outbound shipments for wildlife and 
wildlife products. Wildlife inspectors facilitate legal trade 
and serve as the Nation's primary defenders against illegal 
international trade in wildlife and wildlife products. Although 
they are relatively small in number, they are responsible for a 
large volume of inspections. Each year our wildlife inspectors 
process over 180,000 declared shipments of wildlife and 
wildlife products worth about $5 billion.
    The Endangered Species Act provides the Service broad 
authority to regulate import/export of fish and wildlife. This 
includes licensing of importers and exporters, inspection of 
shipments, and charging and retaining reasonable fees for 
processing applications and performing inspections. This 
comprehensive system is designed to protect foreign and 
domestic species from illegal trafficking, and to guard against 
the introduction of injurious species.
    The ESA exempts the import of certain shellfish and 
fisheries products that are intended for consumption from the 
law's trade regulation requirements. The exemption, however, is 
narrow to discourage smuggling and illegal trade in protected 
species, invasive species, and other wildlife, and to protect 
the legal trade community.
    There was one CITES Appendix III listed cucumber species. 
The Service's role in import/export permitting allows us to 
monitor international trade in order to prevent over-
exploitation. Internationally, the data the Service collects 
through its import/export program is relied upon to inform 
CITES listing determinations.
    In 2014, the Administration established the Presidential 
Task Force on Combating Illegal, Unreported, and Unregulated 
Fishing and Seafood Fraud. As part of this effort, NOAA will 
soon release a proposed rule that may include sea cucumbers 
and/or sea urchins in a list of at-risk species, thereby the 
need to regulate such species under 50 CFR Part 14 might be 
necessary. However, the Department cannot support the bill 
until the proposed seafood import monitoring program is in 
effect. Our goal is not only to ensure compliance with the law, 
but to facilitate lawful trade.
    We place a priority on inspections of live and perishable 
wildlife and wildlife products. The Service published guidance 
to the wildlife inspectors that specifically instructs 
inspectors to give priority to these shipments. We make every 
effort to have a wildlife inspector available to inspect and 
clear shipments. Because of that, we require a 48-hour 
notification that we can ensure that wildlife inspectors are 
available to clear shipments in a timely fashion. This allows 
us to review documents, resolve paperwork problems before 
inspection, and to expedite upon arrival or departure. Live and 
perishable shipments typically are cleared the same day they 
are declared to us.
    The Service has worked closely with the trade community to 
ensure both an understanding of our requirements and to 
facilitate the lawful trade in fish and wildlife. We are happy 
to work and continue to work closely with the sea urchin and 
sea cucumber industry to address their concerns and ensure the 
timely clearance of shipments. I appreciate the opportunity to 
testify before you today, and I look forward to your questions. 
Thank you, sir.
    [The prepared statement of Mr. Woody follows:]
Prepared Statement of William Woody, Chief, Office of Law Enforcement, 
U.S. Fish and Wildlife Service, Department of the Interior on H.R. 4245
                              introduction
    Good afternoon Chairman Fleming, Ranking Member Huffman, and 
members of the subcommittee. I am William Woody, Chief of the Office of 
Law Enforcement for the U.S. Fish and Wildlife Service (Service), in 
the Department of the Interior. I appreciate the opportunity to testify 
before you today on H.R. 4245, ``to exempt importation and exportation 
of sea urchins and sea cucumbers from licensing requirements under the 
Endangered Species Act of 1973.''
    The Service's Office of Law Enforcement focuses its resources and 
efforts on significant threats to wildlife resources--illegal trade, 
unlawful commercial exploitation, habitat destruction, and 
environmental hazards. The Office of Law Enforcement investigates 
wildlife crimes; regulates wildlife trade; helps Americans understand 
and comply with wildlife protection laws; and works in partnership with 
international, Federal, state, and tribal counterparts to conserve 
wildlife resources. The Service is the primary Federal agency 
responsible for enforcing U.S. laws and treaties that address 
international wildlife trafficking and protect U.S. and foreign species 
from unsustainable trade.
    The Service's Office of Law Enforcement has a workforce comprised 
of special agents and wildlife inspectors. This workforce is relatively 
small compared to the volume of wildlife trade and crimes they are 
tasked to monitor and investigate. Our 195 special agents conduct 
investigations to detect and document international smuggling and 
crimes involving the unlawful exploitation of native and foreign 
species in interstate commerce. These agents are on the front line of 
combating the illegal slaughter of elephants in Africa and the 
lucrative trafficking of elephant ivory that provides significant funds 
for organized criminal organizations.
    The Service's 125 wildlife inspectors work at major ports of entry 
across the Nation to check inbound and outbound shipments for wildlife 
and wildlife products. These uniformed wildlife inspectors facilitate 
legal wildlife trade and serve as the Nation's primary defenders 
against illegal international trade in wildlife and wildlife products. 
They ensure that wildlife trade complies with the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora 
(CITES) and U.S. laws. Although they are relatively small in number, 
they are responsible for a large volume of inspections. During fiscal 
year 2014, Service inspectors processed over 183,000 declared shipments 
of wildlife and wildlife products worth more than $4.9 billion.
           the service's role in import/export of echinoderms
    The Endangered Species Act (ESA) provides the Service broad 
authority to regulate the import and export of fish and wildlife. This 
includes licensing of importers and exporters, inspection of shipments, 
and charging and retaining reasonable fees for processing applications 
and performing inspections. This comprehensive system is designed to 
protect foreign and domestic wildlife from illegal trafficking and 
guard against the introduction of injurious species. The Service also 
works closely with stakeholders in the U.S. business community to 
ensure compliance with applicable laws and facilitate the lawful trade 
in fish and wildlife.
    The ESA exempts the import of certain shellfish and fishery 
products that are intended for human or animal consumption and that are 
not listed as endangered or threatened, protected under CITES, or 
listed as injurious under the Lacey Act, from the law's trade 
regulation requirements. This exemption is reflected in Service import/
export regulations found in 50 CFR Part 14, which waive import/export 
license, declaration, and inspection requirements for these 
commodities. The exemption, however, is purposefully narrow to 
discourage smuggling and illegal trade in protected species, invasive 
species and other wildlife, and to protect the legal trade community.
    Sea urchins and sea cucumbers do not meet the Service's definition 
of a shellfish or fishery product, and are therefore not exempt from 
the Service's import and export requirements related to wildlife. In 50 
CFR Part 10.12, the Service defines ``shellfish'' as an aquatic 
invertebrate having a shell including but not limited to oysters, 
clams, other mollusks, lobsters or other crustaceans. Sea urchins and 
sea cucumbers, which are not mollusks, do not have a shell and do not 
qualify as shellfish. A ``fishery product'' is defined as a non-living 
fish of one of the following classes: Cyclostomata, Elasmobranchii and 
Pisces; and includes any part, product, egg or offspring whether or not 
included in a manufactured product or a processed product.
    In addition, there is one CITES Appendix III listed sea cucumber 
species. The Service's role in import/export permitting allows us to 
monitor international trade in order to prevent overexploitation. 
Internationally, the data the Service collects through its import/
export program is relied upon to inform CITES listing determinations.
    We note that on June 17, 2014, the White House released a 
Presidential Memorandum entitled ``Establishing a Comprehensive 
Framework to Combat Illegal, Unreported, and Unregulated Fishing and 
Seafood Fraud.'' Among other actions, the Memorandum established a 
Presidential Task Force on Combating Illegal, Unreported, and 
Unregulated (IUU) Fishing and Seafood Fraud (Task Force). The Task 
Force was directed to provide ``recommendations for the implementation 
of a comprehensive framework of integrated programs to combat IUU 
fishing and seafood fraud that emphasizes areas of greatest need.'' 
Pursuant to those recommendations, the National Marine Fisheries 
Service will soon release a proposed rule to establish data reporting 
and related operational requirements at the point of entry into U.S. 
commerce for imported fish and fish products of species at particular 
risk of IUU fishing and seafood fraud. This list of at-risk species and 
the principles applied to determine this list were developed through a 
process of extensive public comment. Together, the requirements already 
in place for products of U.S. domestic fisheries and the requirements 
proposed in the rule for imported fish and fish products will provide a 
framework for the designated at-risk species to trace seafood, whether 
domestic or imported, back to the point of harvest to verify that 
seafood entering U.S. commerce is both legally caught and not 
fraudulently represented. The proposed rule may include sea cucumbers 
and/or sea urchins in the list of at-risk species thereby obviating the 
need to regulate such species under 50 CFR Part 14; however, the 
Department cannot support the bill until the proposed seafood import 
monitoring program is in effect.
     addressing illegal wildlife trade and population declines of 
                              echinoderms
    International wildlife trafficking is a growing concern and 
unregulated sea cucumber shipments compound this problem. The Service, 
working with government partners in Mexico and other Central American 
nations, has identified a highly profitable black market for 
transshipment of sea cucumbers through the United States to Asian 
markets. Sea cucumbers worldwide are primarily harvested for human 
consumption in Asia. Growing demand in these markets has increased sea 
cucumber prices globally to up to $500.00 (U.S.)/ kilogram, or more, 
for dried product.
    Initially, fishery productions increased to meet this demand, but 
now overfishing and unregulated fishing has taken hold. Globally, 66 
species are overexploited because of poor regulations or lack of 
enforcement, causing a dramatic decrease in their populations. Many 
domestic sea cucumber populations face a steady decline from 
unsustainable harvests. Because they are sedentary and live in shallow 
water, some of the most valuable species are easily overharvested. 
Overharvest of these valuable species has led to the use of some non-
preferred species as a substitute to match supply for the overall 
increased demand for this product. Sustainable regulated harvest is 
essential to preserve the economic interests of those involved in the 
industry, and for the preservation of the delicate marine ecosystems in 
which the sea cucumber is an integral species.
                facilitating legal trade of echinoderms
    The Service has worked closely with the trade community to ensure 
both an understanding of our requirements and to facilitate the lawful 
trade in fish and wildlife. While we understand the applicable laws and 
regulations may be new to some importers and exporters, the 
requirements have been in place since the mid-to-late 1970s.
    The current standard requires that sea urchin and sea cucumber 
imports and exports travel through ports as listed in the Code of 
Federal Regulations. Shipments must be declared and the Service 
requires 48-hour notice prior to arrival and inspection primarily to 
ensure that inspection staff members are available to clear shipments 
in a timely fashion. The 48-hour notification requirement also allows 
wildlife inspectors to review documents and resolve paperwork problems 
before inspection, thus expediting shipments upon arrival or departure. 
Shipments typically go out on time and are cleared the same business 
day they are declared.
    The Service charges modest fees for processing applications and 
performing inspections. For example, the inspection fee for a shipment 
of sea urchins would be $93. By comparison, our review of a sample of 
20 shipments of sea urchins out of Maine shows that the average 
declared value was about $23,000 per shipment.
    We consider the key to ensuring proper clearance and compliance is 
close communication between the importer/exporter or their broker, and 
the Service inspectors at the port where clearance is requested. Our 
goal is not only to ensure compliance with the laws but to facilitate 
lawful trade.
                               conclusion
    The Service's role in monitoring the import and export of wildlife, 
including echinoderms, is integral to the success of conservation. The 
Service is the only agency monitoring and physically inspecting the 
export of wildlife from U.S. ports. As with other domestically managed 
species, state fish and wildlife agencies rely upon the Service 
inspection process to deter interstate smuggling efforts. An exemption 
for echinoderms would provide greater opportunity for international 
smuggling of these valuable species and other wildlife, while limiting 
the Service's ability to work with states and international government 
partners to detect and deter unsustainable, illegal trade.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions that you have and will continue to work with 
Congresswoman Pingree, Congressman Poliquin, and the subcommittee on 
this important issue.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Woody.
    The Chair now recognizes Mr. Atchan Tamaki, Founder of ISF 
Trading, for his testimony.

  STATEMENT OF ATCHAN TAMAKI, FOUNDER, ISF TRADING, PORTLAND, 
                             MAINE

    Mr. Tamaki. Good afternoon. My name is Atchan Tamaki. I am 
a founder and the president of the ISF Trading, Inc., which is 
located on the pier on Portland, Maine's working waterfront, 
and is Maine's largest processor of sea urchins and sea 
cucumbers.
    I am also the president of the Maine Sea Urchin and Sea 
Cucumber Association, and I am a member of the Maine Department 
of Marine Resources Sea Urchin Zone Council, which advises the 
Commissioner of Marine Resources on issues relating to sea 
urchin conservation.
    I moved to the United States from Japan in 1978 to attend 
college. After earning a business degree from the University of 
Montana, I moved to Maine. I have had amazing opportunities in 
Maine. So, I raised my family there, and have been able to grow 
my business and provide jobs to Maine workers. I am proud to 
say that along the way I became a naturalized U.S. citizen.
    After moving to Maine, I began working in the lobster 
business, which introduced me to sea urchins and sea cucumbers. 
I saw tremendous opportunity in that market. In 1989, I began 
buying, processing, and shipping sea urchins and sea cucumbers, 
and my business took off as the industry's pioneer in Maine.
    I have built my business from scratch. It now employs 
approximately 60 people, many of them Asian immigrants with 
limited English language ability who otherwise would have 
difficulty finding jobs. Indirectly, my business employs many 
more people. Several hundred people who make a living by 
harvesting urchins in remote Washington County in Maine, and 
those who transport the product to processors like me in 
southern Maine rely on us for their income.
    With this background, I am here today to testify about a 
grave threat that is facing our industry and putting hundreds 
of Maine jobs at risk. For approximately 30 years, lobsters and 
shellfish have been exempt from the U.S. Fish and Wildlife 
Service import/export fee and inspection regimen. This means 
that, for decades, shipments of lobsters, mussels, clams, 
scallops, and oysters, among others, have been imported to, and 
exported from, the United States without any interference from 
Fish and Wildlife.
    In 2013, Maine's lobster exports totaled $245 million, and 
not a single shipment of it required the payment of fees to, or 
inspection by, Fish and Wildlife. By contrast, Maine's entire 
annual urchin harvest, for both domestic consumption and 
export, is worth about $5.4 million. But each shipment requires 
the payment of over $225 in fees to Fish and Wildlife, in 
addition to $60-$70 in fees to U.S. Customs, plus time-
consuming and delay-inducing inspections. This includes the 
particularly onerous requirement that we notify Fish and 
Wildlife 48 hours in advance of every shipment, despite the 
fact that the urchin catch is brought to shore less than 24 
hours before we process and ship it.
    It is worth noting that the U.S. Custom Service also 
inspects our products. They run a seamless, 24/7 process. When 
the exemption for lobsters and shellfish was enacted in the 
1980s, the sea urchin and the sea cucumber market were in their 
infancy. It is clear that the obscure nature of the industry at 
that time is the sole reason that sea urchins and sea cucumbers 
were not included within the exemption.
    This anomaly made little difference until about 2 years 
ago, when for the first time Fish and Wildlife began requiring 
our industry to submit to the fees and the inspection program 
for exports. The result has been that my business and my 
competitors' businesses have had to pay tens of thousands of 
dollars and endure debilitating delays as we have had to deal 
with Fish and Wildlife, a new and particularly burdensome 
source of red tape.
    Our highly perishable product routinely ends up wasting 
away in a warehouse at JFK Airport as we wait for Fish and 
Wildlife to clear it for export. Lost paperwork, unexplained 
delays, and the lack of response by overworked Fish and 
Wildlife Service employees in New York has often led to spoiled 
product, unhappy customers overseas, and a dramatic hit to my 
company's bottom line.
    In the approximately 2 years during which we have been 
subject to this process, it has only gotten worse, particularly 
when Fish and Wildlife, unlike U.S. Customs, shuts down 
entirely over the December holidays. That is our busiest season 
of the year.
    By adopting H.R. 4245 and extending the longstanding 
exemption for lobsters and shellfish to sea urchins and sea 
cucumbers----
    Dr. Fleming. Mr. Tamaki, I am sorry, we are out of time. 
But your entire statement will be contained in the record.
    Mr. Tamaki. Thank you
    [The prepared statement of Mr. Tamaki follows:]
 Prepared Statement of Atchan Tamaki,President, I.S.F. Trading, Inc.; 
 President, Maine Sea Urchin and Sea Cucumber Association on H.R. 4245
    Good afternoon. My name is Atchan Tamaki, and I am the founder and 
president of I.S.F. Trading, which is located on a pier on Portland, 
Maine's working waterfront and is Maine's largest processor of sea 
urchins and sea cucumbers. I am also the president of the Maine Sea 
Urchin and Sea Cucumber Association and I sit on the Maine Department 
of Marine Resources Sea Urchin Zone Council, which advises the 
Commissioner of Marine Resources on issues relating to sea urchin 
conservation.
    I moved to the United States from Japan in 1978 to attend college. 
After earning a business degree from the University of Montana (there 
is not much seafood processing in Montana!), I moved to Maine. I have 
had amazing opportunities in the United States, and particularly in 
Maine. I raised my family there and have been able to grow my business 
and provide jobs to Maine workers. I am proud to say that along the way 
I became a naturalized U.S. citizen.
    After moving to Maine, I began working in the lobster business, 
which introduced me to sea urchins and sea cucumbers. I saw tremendous 
opportunity in that market. So, in 1989, I began buying, processing, 
and shipping sea urchins and sea cucumbers and my business took off--
you could say that I was the industry's pioneer in Maine. Many 
Americans are not aware that sea urchins are a common food item. Sea 
urchin roe can be found on many sushi menus as ``uni.'' It has long 
been a delicacy in Asia and demand in the domestic market has been 
steadily increasing. I also process sea cucumbers, which are very 
popular in Korean and Chinese markets. After a bout of overfishing in 
the early 1990s, Maine and other states aggressively and very 
successfully regulated the fishery, and it is now a sustainability 
success story.
    I have built my business from scratch. It now employs approximately 
60 people, many of them Asian immigrants with limited English-language 
ability, who otherwise would have difficulty finding work. Indirectly, 
my business employs many more people. My competitors--who also employ 
dozens of people--and I purchase every urchin that is landed at ports 
along Maine's coast. The several hundred people who make a living by 
harvesting urchins in remote Washington County and those who transport 
the product to processors like me in southern Maine rely on us for 
their income. It is important to note that in an era in which almost 
all seafood processing activity has left New England for Canada, 
Maine's sea urchin processors have bucked the trend. Canadian 
processors have been unsuccessful at conducting the labor-intensive and 
skilled work involved in processing sea urchins, and as a result, most 
urchins landed in eastern Canada are shipped to Maine for processing. 
This is a source of tremendous pride in my industry and for me 
personally.
    With this background, I am here today to testify about a grave 
threat that is facing my industry and putting hundreds of Maine jobs at 
risk. For approximately 30 years, lobsters and shellfish have been 
exempted from the U.S. Fish and Wildlife Service import/export fee and 
inspection regimen. This means that for decades, shipments of lobsters, 
mussels, clams, scallops, and oysters--among others--have been imported 
to, and exported from, the United States without any interference from 
Fish and Wildlife. In 2013, Maine's lobster exports totaled $245 
million--and not a single shipment of it required the payment of fees 
to, or inspections by, Fish and Wildlife. By contrast, Maine's entire 
annual urchin harvest, for both domestic consumption and export, is 
worth about $5.4 million, but each shipment requires the payment of 
over $225 in fees to Fish and Wildlife (in addition to $60-$70 in fees 
to the Customs Service), plus time-consuming and delay-inducing 
inspections--including the particularly onerous requirement that we 
notify Fish and Wildlife 48 hours in advance of every shipment, despite 
the fact that the urchin catch is brought to shore less than 24 hours 
before we process and ship it. It is worth noting that the Customs 
Service also inspects our products and we have had no problems in that 
regard--they run a seamless, 24/7 process.
    When the exemption for lobsters and shellfish was enacted in the 
1980s, the sea urchin and sea cucumber markets were in their infancy. 
It is clear that the obscure nature of the industry at that time is the 
sole reason that sea urchins and sea cucumbers were not included within 
the exemption. This historical anomaly made little difference until 
about 2 years ago, when for the first time Fish and Wildlife began 
requiring my industry to submit to its fee and inspection program for 
exports. The result has been that my business and my competitors' 
businesses have had to pay tens of thousands of dollars and endure 
debilitating delays as we have had to deal with Fish and Wildlife, a 
new and particularly burdensome source of red tape. Our highly 
perishable product routinely ends up wasting away in warehouses at JFK 
Airport as we wait for Fish and Wildlife to clear it for export (a 
duplication of the existing Customs process).
    Lost paperwork, unexplained delays, and lack of responsiveness by 
overworked Fish and Wildlife Service employees in New York has often 
led to spoiled product (or ``dead loss''), unhappy customers overseas, 
and a dramatic hit to my company's bottom line. In the approximately 2 
years during which we have been subjected to this process, it has only 
gotten worse--particularly when Fish and Wildlife, unlike Customs, 
shuts down entirely over the December holidays, our busiest season. All 
of this disruption is due to inspections that similar and far more 
prominent seafood products, such as lobster, avoid entirely--and this 
disparity has no basis with respect to science or sustainability.
    The debilitating impact of the Fish and Wildlife fee-paying and 
inspection process has thrown what had been a steady and growing 
business into a state of uncertainty--with fees, delays, and spoiled 
shipments suddenly cutting into my bottom line, I have reduced my 
hiring, as have my competitors. This is having a direct impact on 
Maine's economy and surely also on the economies of other states where 
this industry is prominent, such as California, Oregon, and Washington. 
With this constant drag on hiring and profitability, I honestly cannot 
tell you what the future holds for my industry. This would not have 
been the case before Fish and Wildlife inserted itself into my business 
and those like it.
    I will share with you just one recent example of the burdens 
imposed by this fee-payment and inspection process: In November, my 
company submitted an application to renew our Fish and Wildlife import/
export permit well in advance of its December 31 expiration. This 
permit is absolutely vital to my business given its extensive import/
export activity. Throughout November and December, we repeatedly 
followed up with Fish and Wildlife to inquire about the status of our 
application. We could not get an answer and were simply told, ``it can 
take a long time.'' Come January, we still had not received our renewed 
permit and, as a result, Fish and Wildlife rejected two of our 
shipments to Asia, with a value of $30,000. Finally, during the second 
week of January, our permit arrived, but only after 2 weeks' worth of 
damage was done to our business.
    By enacting H.R. 4245 and extending the longstanding exemption for 
lobsters and shellfish to sea urchins and sea cucumbers, Congress would 
be correcting an historical oversight and providing predictability and 
growth to an essential coastal industry--all without putting our 
environment or natural resources at risk. It would allow my business 
and those like it to go back to focusing on what we do best: Processing 
these highly perishable products and shipping them, packed in ice, to 
Asia within the short window before spoilage occurs. By treating our 
products like its peers--lobsters, mussels, clams, and the like--
Congress would allow our business to return to a state of steady growth 
and hiring.
    Thank you for considering this measure and for providing me with 
the opportunity to make these comments in support of H.R. 4245.

                                 ______
                                 

    Dr. Fleming. Thank you. Next we have Mr. Daniel Morris, the 
National Marine Fisheries Service's Deputy Regional 
Administrator for the Greater Atlantic Region.
    You have 5 minutes, sir.

  STATEMENT OF DANIEL MORRIS, DEPUTY REGIONAL ADMINISTRATOR, 
  GREATER ATLANTIC REGIONAL FISHERIES OFFICE, NATIONAL MARINE 
          FISHERIES SERVICE, GLOUCESTER, MASSACHUSETTS

    Mr. Morris. Good morning. Thank you, Mr. Chairman and 
members of the committee. I am Daniel Morris, the Deputy 
Regional Administrator for the Greater Atlantic Regional 
Fisheries Office within the Commerce Department's National 
Oceanic and Atmospheric Administration. Thank you for the 
opportunity to come before you today to discuss H.R. 3070, the 
EEZ Clarification Act. My comments will focus only on H.R. 
3070, as H.R. 4245 is not within NOAA's jurisdiction.
    The Federal Government and the states have a long history 
of successful collaboration in managing sustainable fisheries. 
Two statutes guiding our collaborative management include the 
Atlantic Striped Bass Conservation Act and the Atlantic Coastal 
Fisheries Cooperative Management Act. The former focuses 
specifically on striped bass conservation and management by the 
states, while the latter provides a vehicle for Federal and 
state cooperation by establishing the Atlantic States Marine 
Fisheries Commission.
    Atlantic striped bass are managed under state 
jurisdictions, as coordinated by the Commission. Historically, 
the striped bass fishery was one of the most important on the 
Atlantic coast. Overfishing and environmental degradation led 
to its decline in the 1980s. But through the state's effective 
management, the stock recovered and was declared rebuilt in 
1995.
    In 1990, NOAA Fisheries implemented a Federal ban on the 
commercial and recreational harvest and possession of striped 
bass in the U.S. EEZ to aid in its recovery. In 2006, we 
reviewed that ban and analyzed the potential effects of opening 
the EEZ to striped bass fishing. At that time, we invited 
public comment and received approximately 8,500 comments, of 
which 97 percent favored continuing the closure, which is what 
we did at the conclusion of the review.
    The unique geography of Eastern Long Island Sound creates 
an area of Federal waters landward and to the west of the state 
waters around Block Island. To accommodate fishermen, NOAA 
Fisheries modified the EEZ restrictions to allow possession of 
striped bass in the area known as the Block Island Transit 
Zone, provided that no fishing takes place from the vessel 
while in the EEZ and that the vessel is in continuous transit.
    In October 2008, Executive Order 13449 affirmed as policy 
of the United States the goal of conserving striped bass for 
recreational, economic, and environmental benefit of present 
and future generations. NOAA Fisheries determined that the EEZ 
striped bass fishing and possession prohibitions were 
consistent with that order.
    Then, in 2009, the Commission reviewed the idea of opening 
the Block Island Transit Area to fishing, but decided not to 
request adjustment of the Federal EEZ prohibitions at that 
time.
    In 2015, a new stock assessment of striped bass showed 
downward trends in the coastal stock. Accordingly, the 
Commission adopted management measures to reduce fishing 
mortality along the coast and in the Chesapeake Bay. The 
changes to the EEZ proposed under H.R. 3070 would have 
implications for the management of the stock for both 
commercial and recreational fisheries. The Commission's 
continued effective and well-coordinated management of the 
fishery will be essential if we are to sustain the striped bass 
resource for the many commercial and recreational interests 
that depend upon it.
    Aside from striped bass, other fisheries occur in the Block 
Island Transit Zone. Recreational and commercial fisheries for 
summer flounder, scup, black sea bass, winter flounder, and 
squid may occur in the area. All are under very effective 
management through the collaboration of NOAA Fisheries, the 
states, the Commission, and the Mid-Atlantic or the New England 
Fishery Management Councils.
    Given the joint management structure, changing jurisdiction 
of the waters adjacent to Block Island from Federal to state 
would have some impact, but a small impact on the management of 
these fisheries, as regulations are typically consistent across 
the jurisdictions. However, bringing this area of EEZ under 
state jurisdiction may affect the fishing opportunity for 
vessels and for fishermen that currently work in Federal 
waters, but do not hold state permits from Rhode Island or New 
York.
    NOAA understands the importance of the striped bass and 
other fisheries for fishermen and the states along the Atlantic 
Coast. If H.R. 3070 is enacted, we would have some work to do. 
Subsequent efforts will be required by NOAA Fisheries and our 
partners to ensure that the harvest in this area is equitably 
divided and fully accounted for. We will continue to work with 
our constituents, the states, and the Commission on this 
important issue to ensure the best possible management of the 
resource.
    Thank you again, Mr. Chairman. I will do my best to respond 
to any questions that you and the Members may have.
    [The prepared statement of Mr. Morris follows:]
  Prepared Statement of Daniel Morris, Deputy Regional Administrator, 
 Greater Atlantic Regional Fisheries Office, National Marine Fisheries 
 Service, National Oceanic and Atmospheric Administration on H.R. 3070
                              introduction
    Good afternoon, Mr. Chairman and members of the committee. I 
appreciate the opportunity to speak with you today about a number of 
the bills before the committee. My name is Daniel Morris and I am the 
Deputy Regional Administrator for the Greater Atlantic Regional 
Fisheries Office, within the Department of Commerce's National Oceanic 
and Atmospheric Administration (NOAA). Thank you very much for the 
opportunity to come before you today to discuss H.R. 3070 and H.R. 
4245. My comments will focus only on H.R. 3070, as H.R. 4245 is not 
within NOAA's jurisdiction.
    The Federal Government and the states have a long and successful 
history of partnering to manage fisheries in a sustainable manner and, 
when necessary, resolve fisheries issues. Two notable examples guiding 
this management include legislation such as the Atlantic Striped Bass 
Conservation Act and the Atlantic Coastal Fisheries Cooperative 
Management Act. The Striped Bass Act focused specifically on striped 
bass conservation and management, while the Atlantic Coastal Act 
provided a way for the states and the Federal Government to partner on 
a wide range of fisheries issues of mutual concern.
                         atlantic striped bass
    Atlantic striped bass are managed directly by the state 
jurisdictions through the Atlantic States Marine Fisheries Commission 
(ASMFC). Historically, the fishery for striped bass was one of the most 
important on the Atlantic coast. Overfishing and poor environmental 
conditions led to the decline of the fishery in the 1980s. Through 
effective management and cooperation by the states under ASMFC, The 
Atlantic Striped Bass Conservation Act, and the Atlantic Coastal 
Fisheries Cooperative Management Act, the stock was rebuilt in 1995.
    In 1990, the National Marine Fisheries Service (NMFS) implemented a 
Federal ban on the harvest and possession of striped bass, both 
commercially and recreationally, in the U.S. EEZ to support the efforts 
of the Atlantic States Marine Fisheries Commission (Commission) to aid 
in the recovery of striped bass along the East Coast. In 2006, NMFS 
reanalyzed potential effects of opening the EEZ to Atlantic striped 
bass harvest, and invited public comment. NMFS received approximately 
8,500 comments, of which 97 percent favored continuing the closure. To 
ensure that both commercial and recreational fishing pressure did not 
increase in the EEZ and ensure the long-term conservation of Atlantic 
striped bass, NMFS maintained the closure.
    NMFS understands the unique fishing area adjacent to Long Island 
and Block Island, and modified the no-possession requirement of 
Atlantic striped bass to allow for possession of striped bass in the 
area known as the Block Island Sound transit zone, provided that no 
fishing takes place from the vessel while in the EEZ and the vessel is 
in continuous transit.
    In October 2008, Executive Order 13449 affirmed as policy of the 
United States the goal of conserving striped bass and red drum for the 
recreational, economic, and environmental benefit of present and future 
generations. NMFS determined that the current prohibitions on fishing 
for striped bass and red drum in the EEZ are consistent with the 
Executive Order.
    In 2009, the Commission reviewed the idea of opening this area to 
fishing, but did not take any action, allowing the continuation of the 
EEZ prohibitions.
    In 2015, based on a new stock assessment which showed downward 
trends in the striped bass coastal stock, the Commission adopted new 
management measures to reduce fishing mortality including a 25 percent 
reduction on the coast and a 20 percent reduction in Chesapeake Bay 
harvests. Changes to the EEZ, as proposed under H.R. 3070 would have 
implications for the management of the stock, both for commercial and 
recreational fisheries. Continued careful and coordinated management of 
this important fish stock through management programs implemented by 
the Commission is essential if we are to sustain the resource and the 
many commercial and recreational interests that depend on striped bass 
fishing.
                        federally managed stocks
    There are no fisheries, apart from striped bass, that are expected 
to be affected significantly by the opening of the area proposed by 
H.R. 3070. Active recreational and commercial fisheries for summer 
flounder (fluke), scup (porgies), black sea bass, winter flounder, and 
potentially squid can seasonally occur within the areas that would be 
opened by proposed H.R. 3070. Summer flounder, scup, and black sea bass 
are jointly managed between NMFS and the Mid-Atlantic Fishery 
Management Council in Federal waters and the Atlantic States Marine 
Fisheries Commission and Rhode Island in state waters. Given the joint 
management structure, it is unlikely that changing the Demarcation Line 
between state and Federal waters adjacent to Block Island would have a 
significant impact on these fisheries as management rules are typically 
consistent across the jurisdictions. Similarly, winter flounder is 
collaboratively managed between state and Federal management partners. 
Although there have been some differences in state and Federal 
management measures for winter flounder, changes in the demarcation 
line should not appreciably alter the winter flounder commercial or 
recreational fisheries. Squid are managed by NMFS and the Mid-Atlantic 
Fishery Management Council in both state and Federal waters, but the 
proposed opening by H.R. 3070 would not change the existing management 
regulations that are effective for state and Federal waters and, by 
extension, would not change the existing fishery.
                               conclusion
    NOAA understands the importance of the striped bass and other 
recreational and commercial fisheries to the states and fishermen along 
the Atlantic coast. We would only note that if H.R. 3070 was to be 
enacted, subsequent efforts will be required by NMFS, the Commission, 
and Councils to ensure the harvest in this area is equitably divided 
among the adjacent state's recreational and commercial fishermen and 
adequately accounted in both recreational and commercial quotas. We 
will continue to work closely with our constituents, the states, and 
the Commission on this important issue to ensure the best management of 
this important resource.
    Thank you again, Mr. Chairman. I am happy to respond to any 
questions that you, or members of the committee, may have.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Morris.
    I now recognize Captain John McMurray, owner of One More 
Cast Charters.

  STATEMENT OF JOHN McMURRAY, OWNER, ONE MORE CAST CHARTERS, 
                      OCEANSIDE, NEW YORK

    Mr. McMurray. Thank you, Mr. Chairman, members of the 
committee. I do appreciate being invited here today to give my 
perspective on the EEZ Clarification Act. That is all I will be 
commenting on. Frankly, I know nothing about Maine's sea 
urchins, but I do agree with the Congressman that, yes, they 
are indeed ugly.
    Again, my name is John McMurray. I run a charter business 
in Long Island, and I have done so for 15 years. I sit on the 
Mid-Atlantic Fishery Management Council, which is one of the 
eight Federal Management Councils. I am also a member of the 
Atlantic States Marine Fisheries Commission's Striped Bass 
Advisory Panel, and I am the Director of Grant Programs at the 
Norcross Wildlife Foundation. I want to be clear that today I 
am speaking solely as a fisherman and a small business owner 
from New York.
    As you are likely aware, the EEZ, the area off our coast 
from 3 nautical miles out to 200, has been closed since 1990. 
That moratorium was put in place to protect new year-classes 
entering the spawning population, and to help with the 
rebuilding of a resource that was recovering from nearly two 
decades of overfishing.
    In 2006, NOAA Fisheries re-evaluated that Federal ban. They 
received approximately 8,500 comments, almost all supporting a 
continued closure. The agency decided to maintain the 
moratorium to ensure fishing pressure did not increase. Today, 
the EEZ effectively serves as a badly needed buffer for an 
adult striped bass population. Outside of 3 miles, stripers are 
temporarily protected from the sometimes immense pressure they 
face in state waters.
    Our nautical charts, as well as GPS units, that show 
Eastern Long Island, Block Island and Rhode Island, the EEZ is 
clearly delineated, indicating a boundary that lies 3 miles off 
of all relevant points of land. Because Block Island is 
approximately 9 miles from Rhode Island and 14 miles from 
Montauk Point, there is a large swath of water between Montauk, 
Block Island, and Point Judith--approximately 155 square miles 
that is Federal water and closed to striped bass fishing.
    Those familiar with the area understand that such water, 
usually from June to October, holds a lot of striped bass, 
which are generally large ones. The EEZ Clarification Act, if 
it were to become law, recreational fishing for striped bass 
will be allowed in such an area.
    While it is easy to think that this is not a big deal, and 
we are just considering opening a small area between two points 
of land, the reality is that we are talking about 155 square 
miles of what is really prime striped bass habitat, 
particularly for those older, larger fecund females. And it is 
in very close proximity to some of the biggest recreational and 
commercial fishing ports on the East Coast. If such an opening 
were to occur, a lot more big, fecund females would presumably 
be harvested.
    As far as I know, there has been no biological analysis 
conducted by NOAA Fisheries, ASMFC, or other managing agencies 
of what sort of impact this might have. Such analysis should 
actually be a requirement before considering any such opening. 
Regardless, it seems very likely that opening this water to 
striped bass fishing would result in an increase--probably a 
significant one--in overall fishing mortality.
    Currently, things are not exactly rosy with striped bass. 
The stock has been in steady decline since 2006. And while the 
latest assessment, completed in 2013, found that it wasn't 
quite yet overfished, such an assessment clearly warned that it 
very well could become overfished in 2015.
    Just about everyone with any real time on the water will 
tell you that the striped bass resource has been trending 
downward, and it is certainly not at the level that it was, 
even just a few years ago.
    Each year it seems to become harder and harder to find 
striped bass in their usual haunts. Certainly there is still 
good fishing to be had, but it is sporadic and hard to predict. 
Those who fish from shore, surf catchers, have suffered from 
the decline the most. The Montauk Blitz, those classic striped 
bass feeding frenzies right off the beach of Montauk, which 
really characterize that area from September to October each 
fall, seem to be a thing of the past.
    It is my opinion that the last thing we should be 
considering at this point is a likely increase in fishing 
mortality. Any such regional opening would also interrupt a 
uniform and consistent EEZ closure along the striper coast. You 
could be fairly sure that if such a bill were to become law, 
Massachusetts, Virginia, North Carolina, et cetera, would be 
carving out their own preferred areas of the EEZ to open. And 
there would be justification, because if New York can do it, so 
can they.
    Finally, the bill intends to open up areas landward from 
``a continuous line running from a point 3 miles south of the 
southernmost point of Montauk to a point 3 miles south of the 
southernmost point of Block Island, Rhode Island, and from a 
point 3 miles south of the southernmost point of Block Island, 
Rhode Island, to a point 3 miles south of the southernmost 
point of Point Judith.''
    Now, if you get out a chart and actually draw those lines, 
you will see that it cuts off the entire southeast corner of 
Block Island. Unless I am misunderstanding something, this 
means that, technically, if you are fishing from the beach on 
that southeast corner, you would be in violation of Federal 
law.
    So, in short, the EEZ moratorium is and has been an 
important component of striped bass conservation efforts. It 
has kept fishing mortality down, particularly in those older, 
larger fish that compose a spawning stock and appear to 
frequent Federal waters. Such a closure over the years has, 
without question, helped to protect the striped bass resource 
from over-harvest.
    The Montauk and Rhode Island party and charter fleet 
appears to be arguing that such a regional opening would 
provide economic benefits. Perhaps it might. But the larger 
question is whether such potential economic benefits----
    Dr. Fleming. Sorry, Mr. McMurray, we are going to have to 
conclude. But thank you. Your entire statement will be in the 
record.
    Mr. McMurray. Thank you.
    [The prepared statement of Mr. McMurray follows:]
 Prepared Statement of Captain John McMurray, Owner/Operator, One More 
                       Cast Charters on H.R. 3070
    Mr. Chairman and members of the committee, thank you for inviting 
me to share my perspective on H.R. 3070, the ``EEZ Clarification Act.''
    I've run a relatively successful fishing charter business in Long 
Island, NY for 15 years, employing three boats and three captains when 
the striped bass resource was at its high point. I sit on the Mid 
Atlantic Fishery Management Council, one of eight regional fishery 
management councils in the United States. I'm also a member of the 
Atlantic States Marine Fisheries Commission's Striped Bass Advisory 
Panel. Last, I'm the Director of Grant Programs at the Norcross 
Wildlife Foundation, which has distributed over $20 million in 
equipment grants, much of that to organizations focused exclusively on 
fisheries and marine habitat protection.
    I want to be clear that I'm here today speaking solely as a 
fisherman and small business owner from New York.
    As you are likely aware, the Exclusive Economic Zone (EEZ)--the 
area off our coast from 3 nautical miles out to 200--has been closed to 
striped bass fishing since 1990.
    Such moratorium was put in place to protect new year-classes 
entering the spawning population and to help with the rebuilding of a 
resource recovering from nearly two decades of overfishing.
    In 2006, NOAA Fisheries re-evaluated the Federal ban. After 
receiving approximately 8,500 comments, almost all supporting a 
continued closure, the agency decided to maintain the moratorium to 
ensure fishing pressure did not increase.
    Today, the EEZ effectively serves as a badly needed buffer for an 
adult striped bass population. Outside of 3 miles, stripers are 
temporarily protected from the sometimes immense pressure they face in 
state waters.
    On nautical charts that show Eastern Island, Block Island and Rhode 
Island the EEZ is clearly delineated, indicating a boundary that lies 3 
miles off of all relevant points of land.
    Because Block Island is approximately 9 miles from Rhode Island, 
and 14 miles from Montauk Point, there is a large swath of water 
between Montauk, Block and Pt. Judith--approximately 155 square miles--
that is Federal water, and thus closed to striped bass fishing. Those 
familiar with the area understand that such water, usually from June to 
October, holds A LOT of striped bass. Generally large ones too.
    While it is legal to be in possession of striped bass in such 
``transit zones'' while steaming between Block Island and Montauk or 
other nearby ports, anglers may not actively fish for stripers in such 
area.
    If H.R. 3070, the ``EEZ Clarification Act'' were to become law, 
recreational fishing for striped bass would be allowed in the ``transit 
zone.''
    While it's easy to think this is not a big deal, and that we're 
just considering opening a small area between two points of land, the 
reality is that we're talking about 155 square miles of what is really 
prime striped bass habitat, particularly for those older, larger, 
fecund females, in close proximity to some of the biggest recreational 
and commercial fishing ports on the East Coast. If such an opening were 
to occur, A LOT more big fecund females would presumably be harvested.
    As far as I know, there has been no biological analysis conducted 
by NOAA Fisheries, ASMFC or other managing agency of what sort of 
impact this might have. Such an analysis should be a requirement before 
considering any such opening. It seems very likely that opening this 
water to striped bass fishing would result in an increase, probably a 
significant one, in overall fishing mortality.
    Currently things are not exactly ``rosy'' with striped bass. The 
stock has been in steady decline since 2006. And while the last 
assessment (completed in 2013) found that it wasn't quite yet 
overfished, such assessment clearly warned that it very well could 
become overfished in 2015.
    Just about everyone with any real time on the water acknowledges 
the decline in abundance of striped bass (unless they have a financial 
stake in harvesting more fish of course). Each year, it seems to become 
harder and harder to find striped bass in their usual haunts. Certainly 
there is still good fishing to be had, but it is sporadic and hard to 
predict. Those who fish from shore (``surfcasters'') have suffered from 
the decline the most. The ``Montauk Blitz'' (striped bass feeding 
frenzies) that characterized the Montauk shoreline in September and 
October, and made Montauk a famous striped bass destination appear to 
be a thing of the past.
    It is my opinion that the last thing we should be considering at 
this point is a likely increase in fishing mortality.
    Any such regional opening would interrupt a uniform and consistent 
EEZ closure along the striper coast. You can be fairly sure that if 
such a bill were to become law, Massachusetts, Virginia, North 
Carolina, etc., would be carving out their own preferred areas of the 
EEZ to open. And there would be justification, ``If New York and Rhode 
Island can do it, then we should be able to also.''
    There is a fairness issue to consider as well. Given the EEZ was 
permanently closed to commercial striped bass fishing pursuant to an 
Executive Order issued by President George W. Bush, such an area would 
presumably be open to recreational fishing only. If that were the case, 
and it was determined that the increase in fishing mortality required a 
reduction, such an across-the-board reduction would affect commercial 
fishermen negatively even if they had little to do with the overage.
    Finally, the bill intends to open up areas landward from ``a 
continuous line running from a point 3 miles south of the southernmost 
point of Montauk to a point 3 miles south of the southernmost point of 
Block Island, Rhode Island, and from such point 3 miles south of the 
southernmost point of Block Island, Rhode Island, to a point 3 miles 
south of the southernmost point of Point Judith.''
    If you get a chart out and actually draw those lines, you'll see 
that it cuts off the entire southeast corner of Block Island. Unless 
I'm misunderstanding something, this means that technically, if you 
were to be fishing from the beach at Sand Bank, or Cat Rock, you'd be 
doing so illegally.
    In short, the EEZ moratorium is and has been an important component 
of striped bass conservation efforts, keeping fishing mortality down, 
particularly on those older large fish that compose the spawning stock, 
and appear to frequent Federal waters. Such a closure has over the 
years, without question, helped to protect the striped bass resource.
    The Montauk and Rhode Island party/charter fleet appears to be 
arguing that such a regional opening would provide economic benefits. 
Perhaps it might. But the larger question is whether such potential 
economic benefits, for what appears to be a narrow special interest, 
trump the long-term health of a public resource. And should those fish 
be available to such special interests at the expense of the great 
majority of anglers, particularly those surfcasters and near shore 
fishermen?
    The answer seems pretty simple to me.
    This concludes my testimony. Thank you for the opportunity to 
provide these comments.

                                 ______
                                 

    Dr. Fleming. Next the Chair recognizes Captain Joe McBride, 
Legislative Representative of the Montauk Boatmen and Captains 
Association, for 5 minutes.
    Take your time, sir. We won't start the clock until you get 
set.

 STATEMENT OF JOE McBRIDE, LEGISLATIVE REPRESENTATIVE, MONTAUK 
     BOATMEN & CAPTAINS ASSOCIATION, EAST HAMPTON, NEW YORK

    Mr. McBride. Thank you, Mr. Chairman. I am Captain Joe 
McBride. I have spent 40 years as a charter boat captain in the 
Montauk area, and I am very familiar with the areas, 
geographically and historically, in regard to the fishing. It 
is not in my written statement, because I didn't think it was 
important, but I do have to lend some credibility to my 
opinions on the issue before us, Congressman Zeldin's bill.
    In any case, I would like to thank Chairman John Fleming 
and Congressman Lee Zeldin for allowing us to present our 
issues to the Committee on Natural Resources. We appreciated 
Chairman Bishop and other Members taking time to come to 
Riverhead in December for a field meeting. You are to be 
commended, all of you, and to be thanked by the fishermen on 
Long Island, for taking the time to come out and hear our 
problems, whatever the resolve will be. Again, I would 
personally like to thank Congressman Zeldin for arranging these 
particular meetings.
    We have a longstanding problem with the Transit Zone 
between Block Island, Rhode Island, and Montauk Point, New 
York, and between Block Island and Point Judith, Rhode Island. 
The unintended consequence of this restriction is that New York 
State and Rhode Island have lost over 60 percent of the 
historical striped bass fishing areas in the Transit Zone.
    When the zone was first set up in approximately 1990, no 
one enforced it for 10 years. No one even paid attention to it 
for 10 years. Somewhere after 9/11 we began to see a number of 
Coast Guard vessels from Boston, from New London, and from New 
York enforcing the 3-mile law. Most people didn't even know, 
including the captains, because it was not delineated on the 
regular charts. It was on special charts pertaining to the 
fishing and to the laws that were aforementioned.
    It is a very onerous thing for us, because not only is the 
area an important historical part of our fishing grounds, they 
contain all of our striped bass, or a good portion, 60 percent 
of our striped bass rips, as they call them, the places we fish 
for striped bass. So we are putting up with it, trying to see 
what we could do to rectify it.
    I had a meeting with the Coast Guard commandants from New 
London, New York, and Boston in New York, and they pointed out 
to me, ``Joe, we are police officers of the sea. We are told to 
enforce the law. We have to enforce the law. It is nothing we 
want to penalize Montauk,'' which I was concerned was something 
going on that we didn't know about. ``The law is the law. You 
have to change it.'' We have been trying to change the law in 
an equitable fashion. Not unequal, not to take something from 
anybody else.
    But if you look at the coast of the United States, going 
from South Carolina, 3 miles is more than adequate for our 
fisheries. Bass fishing is a coastal fishery. Beyond the 
anomaly is the area between Montauk Point and Block Island, and 
Block Island and Point Judith.
    Now, we would like to be able to fish for striped bass in 
that area by any means that does not do any harm to any other 
fishery or any other group of fishermen. And we would rely on 
both Congressman Zeldin to lead the charge and, hopefully, with 
the Congressman from Connecticut, they can work together to 
adjudicate this problem and come up with a bill that will 
present us with the opportunity to restore historical fishing.
    I sort of summarized--I am running out of time here--I 
summarized pretty much what you have in the written report. I 
want to thank you again for your considerations of our 
requests.
    [The prepared statement of Mr. McBride follows:]
Prepared Statement of Captain Joe McBride, Legislative Representative, 
       Montauk Boatmen & Captains Association (MBCA) on H.R. 3070
    The MBCA would like to thank Chairman John Fleming and Congressman 
Lee Zeldin for allowing us to present our issues to the Committee on 
Natural Resources. We appreciated Chairman Bishop and other Members 
taking the time to come to Riverhead in December for a field hearing.

    We have a longstanding problem with the Transit Zone between Block 
Island, RI and Montauk Point, NY, and between Block Island and Point 
Judith, RI. The unintended consequence of this restriction is that New 
York State and Rhode Island have lost over 60 percent of their 
historical striped bass fishing areas in the Transit Zone.

    This anomaly exists only in this area because of the extended 
distance between Montauk Point, NY to Block Island, and is the same for 
Point Judith to Block Island. The distance from Block Island to either 
Montauk Point or Point Judith is approximately 15 miles. We having been 
trying for many years to correct this problem with no success.

    The impact of sport fishing on Long Island is very important to our 
economy, especially in Montauk. According to the 2001 survey Sea Grant, 
a branch of Cornell University, the economic impact of sport fishing is 
as follows:

  1.  At least $2 billion to our economy

  2.  Over 1 million sport fishermen

  3.  10,000 full or part time jobs on Long Island

  4.  The above are exclusive of the sale of boats and equipment for 
            the industry

    To correct this unintended problem we respectfully request:

  1.  Sport fishing for striped bass be allowed in the Transit Zone be 
            allowed as soon as possible

  2.  You support H.R. 3070 to change the EEZ area to 3 miles south of 
            Block Island and Montauk Point and the same for the area 
            between Block Island and Port Judith, RI

    Thank you for your consideration of our requests.

                                 ______
                                 

    Dr. Fleming. I thank you gentlemen for your valuable 
testimony. At this point, we will begin our questions for the 
witnesses. Members are limited to 5 minutes for their 
questions. And we can have more than one round, depending on 
the number of questions, of course.
    Mr. Woody, I have a question for you. You have heard 
testimony--several, in fact, make note of the fact that 
oftentimes the sea urchins are brought in and the inspections 
are not timely, there is spoilage, loss of revenue. When that 
happens, I am not hearing that anybody gets fined. In private 
business, when you do things like that, you get fined, lose 
customers, or lose your crop, or whatever it is. But if the 
inspectors fail to do their job, what is done to them? And then 
how do you make it up to the industry for allowing their 
product to spoil?
    Mr. Woody. First, sir, I am not aware of any spoilage 
dealing with this. I have heard that testimony, but I am not 
aware of any spoilage. One thing that we do require is when we 
asked industry for the 48 hours, that is to move the paperwork 
through.
    For example, the one that was spoke to over the weekend, 
there were another five shipments of live and perishable 
wildlife or product that came through. All of those shipments 
went through, no problem. There wasn't an issue with them at 
all.
    This other particular shipment that we are talking about, 
my staff told me that they were told that we could get to it 
Monday. It was not a perishable shipment. We gave priority to 
those other ones, and we moved this other one through.
    Dr. Fleming. Do you have a system where you track your 
success at timely inspections?
    Mr. Woody. How do you mean?
    Dr. Fleming. Well, you say you are not aware of it, but 
that doesn't mean it doesn't happen. If you are not asking, you 
are not going to know.
    Mr. Woody. Correct. We worked very closely with Ms. 
Pingree's staff on looking at some of the issues that they had, 
and we make every effort, every effort to make sure that we 
have somebody----
    Dr. Fleming. An effort, sir, is not a system. I am 
wondering what system do you have. And I will open it to the 
other panelists who say that you have experienced spoilage 
issues with perishables. Is there a network or a system in 
which you can file a complaint, a timely complaint, and get 
quick response? Anyone?
    [No response.]
    Dr. Fleming. OK. So, if there isn't a way for them to know, 
or for you to know, and certainly intervene when your 
inspections have not taken priority, then, obviously, it sounds 
like to me, that that is a system failure.
    Mr. Woody. And again, sir, I am not aware of anything 
sitting on the tarmac or being spoiled.
    Dr. Fleming. Right. But again, if you are not aware, that 
doesn't mean it doesn't happen. That is the whole point here.
    Mr. Woody. I would think that if a $20,000 shipment spoiled 
on the tarmac, oh, I would hear about it.
    Dr. Fleming. OK. So you are saying--and again I will open 
it up to the panel. Gentlemen, do you complain when these 
things happen, or do you just say nothing? Anybody?
    Mr. Tamaki. Yes, we have several times. That is we ask for 
the inspections. For example, 2 years ago, when the main season 
is closed, shut down, we import from Chile for the fresh sea 
urchin. That is the first time that--it was products at the JFK 
Airport, and it was 90 degrees, and the Fish and Wildlife New 
York Office told me they need to inspect. ``OK. Can you do as 
soon as possible? '' They said they don't have enough staff.
    Meanwhile, we have to just leave it there. That is 
perishable product in the 90 degree heat. Absolutely, it is no 
good.
    Dr. Fleming. Right. But let me interrupt you for just a 
second, because I will run out of time. My question is, when 
that happens, do you have a method, an immediate method, in 
which you can complain? Is there a 1-800 number, a hotline, 
somebody you can go to with the inspection agency that you can 
complain to? Or is there some way of adjudicating that?
    Mr. Tamaki. No, I didn't know an 800 number, but that is--I 
am sorry, I didn't know at the time----
    Dr. Fleming. So you called, you were told there wasn't 
enough staff.
    And, Mr. Woody, you say you are not aware these things 
happen. But nobody here is telling me that there is a 
communication route in which complaints can be made.
    Mr. Woody. Yes, we have our resident agent in charge there, 
a number of inspectors. I mean they make themselves available 
for those calls. And again, sir, I have not heard of an issue 
where we have had----
    Dr. Fleming. Well, you heard one just a moment ago. Just 
now you heard one.
    Mr. Woody. And we are not aware of that issue, sir.
    Dr. Fleming. OK. Well, again, I would have to submit to you 
that this is what the American people are very upset about, is 
the bureaucracy in America that seems to be self-serving, and 
not listening to the American people.
    With that, I yield to the Ranking Member.
    Mr. Huffman. Mr. Chairman, I will defer to my visiting 
colleagues from Maine and Connecticut to start us off, perhaps 
starting with Ms. Pingree, if she has some questions.
    Ms. Pingree. Thank you very much. Thank you for yielding to 
me, and thank you to everyone for their testimony. I know 
nothing about Long Island Sound, so I won't be asking you any 
questions, but I appreciate all of you.
    Mr. Woody, I do want you to understand that we appreciate 
how much back-and-forth we have had with Fish and Wildlife, 
with the enforcement, around the science. I probably have more 
distinct concerns about the science, because I do think we 
could come together on this. But I also know that is really a 
congressional issue, it is not easy for your Department to do 
that.
    And I just want to reinforce that, while I am in favor of 
the Endangered Species Act, and I appreciate the job that the 
Department does to make sure many species are safe, and what is 
imported and exported is appropriate, it does seem to me that 
if this was removed from one of the items that needed to be 
inspected--you guys basically are overworked and have plenty of 
things that have a real need for inspection. We don't have a 
lot of examples of concerns about what is being exported or 
imported into Maine, and it just seems to me it would be more 
useful for the Department to concentrate on things such as 
overfishing or a pattern of illegal harvesting.
    Do you have concerns about the sort of priority of this?
    Mr. Woody. I do. If I may, I want to give you some facts. I 
mean you guys know Maine much better than I do, you guys are 
the experts. But let me tell you about what is going on in the 
United States, and what we are seeing as a whole with the Fish 
and Wildlife Service, even with sea urchins and sea cucumbers.
    I pulled some stats for 2014 and 2015. Exported shipments 
of sea cucumbers and sea urchins going out of the United States 
were a little over 2,321. Import or transported through the 
United States there were over 8,021 shipments, for a total of 
10,300 shipments. There is an estimated number of licensees 
holding that for both sea cucumbers and sea urchins. There are 
314. The total amount of pounds that went out was about 26 
million pounds. The declared value was $218 million going 
through.
    Now, if you will, a lot of that comes up from South America 
and through into Mexico. We seize shipments all the time. There 
have been about 253 shipments coming up from that part of the 
world that we have seized out of this, and that is the small 
percentage that--we do not inspect all of them. If they don't 
declare--remember, these are declared shipments--many of those 
shipments get through. So there are quite a few others that 
come through, as well.
    But globally, there are a lot of those shipments that come 
through, and we want to inspect those and make sure that those 
are legal shipments that come through, as well. Again, what we 
have in Maine you guys know very well, but the rest, and what 
is being put in those shipments, everything from totoaba to 
shark fin and other things. That is what we look for, as well.
    So, it is very hard for us to separate out sea urchins in 
Maine to the sea urchins and what is going on down in Mexico 
and coming up through that part of the country, as well, in the 
Gulf.
    Ms. Pingree. I have never seen the reports of shipments 
that have had to be seized coming into the country, and I don't 
know the mechanics of all this. But given that our biggest 
concern is about the exports leaving Maine, I don't think we 
have ever had an incident of something going out in a shipment 
from Maine that was an illegal shipment, an invasive species, 
an endangered species, and----
    Mr. Woody. Not that I am aware of.
    Ms. Pingree. So, we would be particularly interested in 
what happens with the exports.
    I guess the other question is about this 48-hour rule. I do 
understand the mechanics of why you need a certain amount of 
time to make sure the inspectors are available. But given the 
comparison to Customs, which clearly has more resources and is 
open 24/7, and sometimes the inability to just make the 
shipments, why do we have to apply that to a perishable 
shipment, when there are others that aren't perishable?
    Mr. Woody. On the 48-hour rule?
    Ms. Pingree. Yes.
    Mr. Woody. We can inspect it. If, in fact, it is coming 
through like that, we want to make sure that we clear it. If 
there are any paperwork issues, any clerical issues, we want to 
make sure that moves through quickly, because as these 
gentlemen already spoke to, I mean, they already have the bills 
of laden, it is going on the plane. We want to look at it. We 
may choose to look at it, and then it goes through and out.
    So, we need that notification. And again, we have put out 
policy and direction to our inspectors to make sure that those 
are a high priority on perishable items.
    Ms. Pingree. Thank you. I am out of time, but I appreciate 
your answer.
    Dr. Fleming. OK. The gentlelady yields. And next, Mr. 
Poliquin is recognized for 5 minutes.
    Mr. Poliquin. Thank you, Mr. Chairman, very much.
    Mr. Leask, you showed that terrific video. And it was very 
clear to me and everybody else in the room that you are 
intentionally not trying to over-harvest, which would, of 
course, be a detriment to your livelihood and others in the 
state of Maine. You are clearly showing that you are collecting 
those urchins in a bag--you weren't clearcutting--correct?
    Mr. Leask. Correct.
    Mr. Poliquin. OK. You mentioned that one of the things that 
you want to make sure you support is sustainable trade. When 
you are looking in a crate at sea urchins, is there a way to 
determine by looking at it and inspecting it, if there has been 
overfishing in the state of Maine? Mr. Woody?
    Mr. Woody. Sir, I am sorry, I missed that. I thought you 
were speaking----
    Mr. Poliquin. If you look in a crate to inspect it, can you 
tell if that has been overfished?
    Mr. Woody. No, sir.
    Mr. Poliquin. OK. And I am also guessing that you probably 
have a hard time determining if the urchin is from Canada, from 
Nova Scotia, or from Maine, correct?
    Mr. Woody. I don't know if we have the paperwork going 
through on that.
    Mr. Poliquin. OK. We are chewing up a little bit of time 
here.
    Mr. Woody. OK, sure.
    Mr. Poliquin. OK, thanks. When we inspect the sea floor in 
our annual survey dives in the state of Maine, I am guessing 
you are comfortable that we are doing everything we can to 
assure there is sustainable fishery in Maine, is that correct?
    Mr. Woody. That is correct.
    Mr. Poliquin. OK, good. Let's talk about the inspections. 
My heart goes out to you folks. You mentioned that you have 
about 180,000 inspections per year with 125 inspectors.
    Mr. Woody. You are breaking out really bad, sir.
    Mr. Poliquin. Your numbers indicated that you do about 
180,000 inspections per year, you have 125 inspectors. That is 
about, roughly, 1,500 inspections per person, per year, which 
comes down to roughly 300 per week, or 60 a day. But you don't 
work every day, so it is maybe--so in an hour, you are probably 
doing one inspection every 6 minutes.
    Now, where I am going with this is the following point. How 
do you do this? You have already said that you can't. So my 
question, Mr. Chair and, Mr. Woody, to you, is why are you 
picking on sea urchins and sea cucumbers? I mean up until 2012 
we treated them the same way as lobsters and clams.
    Mr. Woody. We treat sea urchins and sea cucumbers like we 
do all other wildlife.
    Mr. Poliquin. No, you do not. That is not the case, sir. Up 
until 2012, sea cucumbers and sea urchins had an exemption--you 
were not going through the rigmarole that these folks now have 
to go through to get the product, very perishable, highly 
valuable, to market. Since 2012, you have been doing something 
different, right?
    Mr. Woody. No, that is not correct.
    Mr. Poliquin. That is not correct?
    Mr. Woody. I am not familiar with what happened, what you 
are referring to in 2012.
    Mr. Poliquin. So the process that you go through with 
inspections has been the same for the last 20 years?
    Mr. Woody. That is correct.
    Mr. Poliquin. OK. That is not my understanding. My 
understanding is that we are trying to make sure the sea 
cucumbers and sea urchins continue to have an exemption, like 
they always have had for the past 20 years. Am I mistaken here?
    Ms. Pingree. Mr. Chair, my understanding is that it was not 
enforced until 2012. They did not have a specific exemption, 
the exemption has been the same since the 1980s. But our 
understanding is there was no application of this, so they were 
not inspected, there were no charges made prior to that. But 
the Department has gone for back-charges for that period of 
time.
    Mr. Poliquin. Thank you very much. It sounds like to me, 
Mr. Woody, that this is a solution looking for a problem. It 
was working fine up until 2012 is my understanding.
    Mr. Woody. Sir, we passed out our import/export of 
shellfish and fisheries products, and what we talk about, on 
the inspections that we do. This goes back to 2008. We have 
always--I hear what you are saying, but nothing changed in 
2012.
    Mr. Poliquin. Clearly, given the workload that you folks 
have, and the perishable nature of the product that we are 
trying to harvest, process, and export from Maine--there will 
be incidents, I am guessing--otherwise, these folks would not 
have taken the time to come down here and tell us of having a 
real hard time getting their product quickly to market.
    Do you folks, in your inspections process, do you factor in 
the potential loss of income and jobs when you go through your 
process? Is that part of your deliberation?
    Mr. Woody. No. I hear what you are saying. No, sir, we do 
not.
    Mr. Poliquin. Why not?
    Mr. Woody. Well, I am not aware of jobs being lost because 
of our inspection process.
    Mr. Poliquin. Mr. Leask, or Mr. Tamaki, would you like to 
weigh in here?
    Mr. Leask. Yes, Mr. Poliquin, thank you. In the last 2 
years this inspection process has ramped up. To my knowledge, 
there were no inspections done prior to that, even if it was 
policy. There was nothing mentioned by buyers. I deal with five 
different buyers. I have talked to all of them about this, and 
this process has commenced in the last 2 years.
    Mr. Tamaki. Yes, that is true, since 2012 the Fish and 
Wildlife has got involved, for the fees and the inspections.
    But I really didn't know what they are inspecting for 
because of the--if it is import/export, U.S. Customs, they 
inspect. And then FDA also inspects. So----
    Mr. Poliquin. No, thank you, Mr. Tamaki. If I may, because 
my time is running out, Chairman, if I may ask one last 
question?
    Mr. Woody, do you have other incidents, other examples of 
inspecting other wildlife around the country that are already 
inspected by the state?
    Dr. Fleming. Mr. Poliquin, we are just way over time. We 
will do another round.
    Mr. Poliquin. Thank you, Mr. Chair.
    Dr. Fleming. OK. Next, Mr. Courtney is recognized.
    Mr. Courtney. Thank you, Mr. Chairman. Again, I want to 
thank you for the courtesy of having me here today, along with 
the Ranking Member. And thank the witnesses for your testimony.
    First of all, I have a written statement that I would ask 
to be admitted to the record. I also have a joint letter from 
the Connecticut House and Senate Delegations, along with 
letters of opposition from the Southern New England Fishermen 
and Lobstermen's Association and from Commissioner Robert Klee 
with the Connecticut Department of Energy and Environmental 
Protection. I would appreciate the courtesy of those being 
admitted to the record as well.
    Dr. Fleming. Yes, without objection, so ordered.
    [The information provided by Mr. Courtney for the record 
follows:]
 Prepared Statement of Joe Courtney, a Representative in Congress from 
                 the State of Connecticut on H.R. 3070
    Chairman Fleming and Ranking Member Huffman, thank you for the 
opportunity to participate in today's hearing on the proposed remapping 
of the exclusive economic zone in eastern Long Island Sound. As you 
know, on January 29, 2016, I joined the entire Connecticut 
Congressional Delegation requesting that you include stakeholders from 
Connecticut on your panel of witnesses for this legislative hearing. 
While that request was not granted, I appreciate that your subcommittee 
is offering me a chance to speak on behalf of Connecticut fishermen and 
state officials alike.
    Environmental, economic, and recreational management of Long Island 
Sound has long been a collaborative partnership between Connecticut and 
New York. The Congressional Long Island Sound Caucus is a clear example 
that our Congressional offices have a rich history of working across 
both state and party lines to support our common interest in this rich 
natural resource. This is why I am so disappointed that zero 
Connecticut stakeholders were contacted about the EEZ Clarification 
Act, legislation that will directly affect their livelihoods.
    The goal of this misguided legislation is simple--to move the 
current boundary of the EEZ east as a means to award Rhode Island and 
New York 150-square miles of waters that are currently managed 
federally. This change will require Connecticut's small fishing vessels 
to travel over 20 miles further to reach the newly proposed EEZ. While 
some ships may be able to harvest certain fish stocks with New York and 
Rhode Island permits, Connecticut lobstermen who rely on the EEZ will 
be barred from waters handed over to Rhode Island due to state law that 
does not allow non-residents to harvest lobster in Rhode Island state 
waters.
    In addition to blocking Connecticut fishermen from these 
historically fished Federal waters, the EEZ Clarification Act will harm 
the striped bass population in Long Island Sound. While fishing of 
striped bass is allowed in state waters, a ban in Federal waters has 
allowed the declining stock to maintain a stable adult population. A 
conversion to state waters will once again open up the striped bass 
stock to the threat of overfishing.
    Put simply, this legislation is bad for the Connecticut fishing 
industry and bad for the environment. This bill, marketed as a 
clarification of water boundaries, would only lead to greater confusion 
of waters managed by the New England Fisheries Management Council since 
1976. The Commissioner of the Connecticut Department of Energy and 
Environmental Protection, Rob Klee, and members of the Southern New 
England Fishermen and Lobstermen's Association have written to me in 
strong opposition of this legislation. I submit their letters for the 
record. I strongly oppose H.R. 3070 and thank the subcommittee for the 
opportunity to speak today.

                                 ______
                                 

                     Congress of the United States,
                                            Washington, DC,
                                                  January 29, 2016.

Hon. John Fleming, Chairman,
House Subcommittee on Water, Power and Oceans,
1324 Longworth House Office Building,
Washington, DC 20515.

Hon. Jared Huffman, Ranking Member,
House Subcommittee on Water, Power and Oceans,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Fleming and Ranking Member Huffman:

    It has come to our attention that the House Water, Power and Oceans 
Subcommittee plans to hold a legislative hearing on H.R. 3070, the EEZ 
Clarification Act. This legislation seeks to remap the exclusive 
economic zone (EEZ) in Long Island Sound to a new landward boundary 
between Montauk, New York and Point Judith, Rhode Island. However, for 
the Subcommittee to fully understand the scope of this legislation, we 
believe that it is prudent to invite stakeholders from all areas 
impacted by the EEZ change--including the state of Connecticut.
    As you know, this legislation would transfer 150 square miles of 
the EEZ in and around Block Island Sound to the states of New York and 
Rhode Island for fisheries management. This transfer of fisheries 
control will deny Connecticut fishermen from harvesting in these waters 
which they have fished for decades. The New England Marine Fisheries 
Council has been managing fisheries in this EEZ since 1976 and this 
change would result in confusion and subsequent fines for Connecticut 
fishermen who have historically fished in these waters. While 
supporters of this legislation contend that it will empower local 
fishermen by restoring access to fish stocks and allowing state 
management of waters, we believe it is imperative to underscore the 
major economic losses that the Connecticut fishing industry would face 
as a result of this misguided bill.
    In addition to negatively impacting our fishing industry, this bill 
would serve a major blow to the rebuilding of the striped bass stock. 
In a letter from the Connecticut Department of Energy and Environmental 
Protection, Commissioner Robert Klee contends, ``(t)he waters around 
Block Island seem to be holding an unusually large proportion of the 
adult striped bass population in recent years. Converting these federal 
waters to state jurisdiction will expose these reproductive age fish to 
significant mortality which our public hearings on striped bass 
management tell us would be opposed by the vast majority of anglers.'' 
Furthermore, this conversion to state fisheries management and 
subsequent increased striped bass harvest would contradict an approved 
2014 addendum by the Atlantic States Marine Fisheries Commission 
(ASMFC) which directs states to reduce striped bass harvests by 25%.
    It is our belief that this legislation was narrowly crafted to 
benefit selected states. With Connecticut state government officials 
and local fishermen alike vocally opposing H.R. 3070--including 
Connecticut members of the Southern New England Fishermen and 
Lobstermen's Association--we strongly urge you to include an opposing 
witness from Connecticut at the legislative hearing to better 
understand the full scope of this bill. Attached to this letter, you 
will find letters of opposition from Connecticut Department of Energy 
and Environmental Protection Commissioner Rob Klee and Southern New 
England Fishermen and Lobstermen's Association member Joe Gilbert. We 
will continue to monitor the progress of this legislation. If you have 
any questions, please contact Alexa Combelic in Congressman Courtney's 
office at 202-225-2076 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0869646d7069266b67656a6d64616b48656961642660677d7b6d266f677e26">[email&#160;protected]</a>

            Sincerely,

        JOE COURTNEY                  RICHARD BLUMENTHAL
        Member of Congress            United States Senator

        JOHN B. LARSON                CHRISTOPHER MURPHY
        Member of Congress            United States Senator

        ROSA L. DeLAURO               JAMES A. HIMES
        Member of Congress            Member of Congress

        ELIZABETH H. ESTY
        Member of Congress


                                 ______
                                 

                                                   January 25, 2016

Hon. Joe Courtney, Congressman,
U.S. House of Representatives,
Washington, DC.

Subject: Legislative Hearing on H.R. 3070 (Rep. Lee Zeldin, R-NY), 
        ``EEZ Clarification Act''

    Dear Congressman Courtney:

    My name is Joseph Gilbert and I am an owner of a fleet of 
commercial fishing vessels based out of Stonington, Connecticut as well 
as an active member of the Southern New England Fishermen and 
Lobstermen's Association. I have engaged my colleagues and fellow 
fishermen regarding H.R. 3070 and we collectively oppose the passage of 
this bill. H.R. 3070, if passed, would result in approximately 150 
square miles of the Exclusive Economic Zone in and around Block Island 
Sound being transferred to the states of New York and Rhode Island for 
the purposes of fisheries management. This transfer of authority over 
such a vast area of the Exclusive Economic Zone constitutes a land grab 
by New York and Rhode Island in addition to the improper reallocation 
of fishing rights amongst current users. For these and the following 
reasons, we oppose H.R. 3070:

    <bullet> H.R. 3070 will have a direct negative economic impact on 
            the Connecticut fishing industry. For example, the 
            commercial lobster and trawling fleets of Stonington and 
            New London, Connecticut have historically frequented and 
            enjoyed access to this 150 square mile area of the EEZ. If 
            New York and Rhode Island are transferred the authority for 
            the management of fisheries in this area, then Connecticut 
            fishermen will be disenfranchised from the use and 
            enjoyment of the area unless they possess a license from 
            the new state management regime.

    <bullet> There is no need to clarify the boundary of the EEZ for 
            the purposes of fisheries management in this area. The New 
            England Marine Fisheries Council is charged with conserving 
            and managing the fisheries resource in this area since 
            1976. If there is a need to change or amend the fishing 
            regulations, then the appropriate channel is through the 
            NEMFC process and not through the transference authority to 
            New York and Rhode Island. If passed, H.R. 3070 would 
            essentially reallocate 155 square miles of bottom to state 
            jurisdiction without conforming to the National Standard 4 
            of the Magnuson-Stevens Act.

    <bullet> H.R. 3070 would disrupt the uniform harvest prohibition of 
            striped bass in the EEZ from Maine to North Carolina, 
            thereby making a relatively small exemption for a small 
            fraction of users. The Block Island Sound transit zone is 
            not the only region within the striped bass management unit 
            where stakeholders have expressed a desire to open portions 
            of the EEZ for directed striped bass harvest. These efforts 
            have been denied by federal agencies due to the potential 
            impacts on the overall stock and the challenges associated 
            with enforcing small exempted areas. H.R. 3070 would 
            initiate a move toward a patchwork management of striped 
            bass in federal waters and would set a dangerous precedent 
            for other states to annex nearby federal waters in order to 
            access what would otherwise be protected stocks of striped 
            bass under federal management.

    <bullet> There has been no analysis conducted to determine the 
            biological, conservation or economic impacts that would 
            occur if Block Island Sound were opened to the directed 
            fishing of striped bass. H.R. 3070 allegedly seeks to 
            eliminate regulatory confusion for anglers trying to abide 
            by state and federal law by annexing a large portion of the 
            EEZ to the states' control and thereby opening up the area 
            to directed fishing for striped bass by state licensed 
            fishermen. Given the migratory nature of striped bass 
            populations, this change could also negatively impact the 
            local Connecticut striped bass fishery. In addition, under 
            current federal management, the boundary lines of the EEZ 
            promote conservation by excluding the taking of striped 
            bass from the certain areas around Block Island known as 
            the Southwest Ledge. If this area, which is home to a 
            robust population of striped bass, falls under state 
            control through the passage of H.R. 3070, additional 
            fishing pressure will be brought upon the striped bass 
            population by opening up to harvest what is in effect a 
            near shore sanctuary for striped bass.

    <bullet> Regulatory confusion over striped bass possession in 
            federal waters has already been addressed through the 
            establishment of transit zones and thus there is no need to 
            eliminate regulatory confusion through the clarification of 
            the EEZ. Current federal regulations prohibit the 
            possession of striped bass in federal waters and concerns 
            have been raised in the past about striped bass regulations 
            while in federal waters. For example, the prohibition 
            prevents fishermen from Montauk from steaming to Block 
            Island to legally fish for striped bass in Rhode Island 
            state waters and then returning back to port with striped 
            bass onboard their vessels. An exemption for this was 
            already ratified in 2005 as contained in CFR Title 50 part 
            697.7(b)(3) which allows the transport of non-EEZ caught 
            striped bass in the permitted area or transit zone.

    In conclusion, H.R. 3070 represents an attempt to disenfranchise 
Connecticut fishermen from 150 square miles of ocean in Block Island 
Sound for the alleged purpose of eliminating regulatory confusion for a 
small subset of recreational striped bass fishermen. These striped bass 
fishermen already have ample grounds to fish on within state waters and 
have been exempted from possession prohibitions while in transit zones. 
There is no reason why the commercial fleets of Connecticut should 
suffer in return by being denied access to an area historically used 
and enjoyed by them under current federal management.

            Respectfully,

                                            Joseph Gilbert,
                                 Commercial Fishing Fleet Owner and
                                 Member of the Southern New England
                            Fishermen and Lobstermen's Association.

                                 ______
                                 

                        Connecticut Department of  
                 Energy & Environmental Protection,
                                            Hartford, CT,  

                                                  January 29, 2016.

Hon. Joe Courtney, Congressman,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Courtney:

    Thank you for inquiring of the Connecticut Department of Energy and 
Environmental Protection (DEEP) about the effects to the state should 
H.R. 3070, the EEZ Clarification Act, be enacted into law. DEEP's 
concerns are such that I write to express strong opposition to the 
bill.
    Connecticut's objections to this bill extend well beyond striped 
bass management which seems to be at the core of this bill. Connecticut 
commercial fishermen operate in what are now federal waters (EEZ) under 
federal fishery permits. If these federal waters become state waters 
divided between the states of New York (NY) and Rhode Island (RI), 
access to these waters will be lost to these Connecticut Commercial 
fishermen. This is already the case for lobstermen fishing in any 
waters that fall under RI jurisdiction as that state prohibits non-
residents from fishing for lobsters in their waters. Connecticut 
commercial fishermen who do not hold non-resident fishing licenses in 
NY or RI for other fisheries will also be permanently excluded from 
fishing in this area. In addition, commercial fishing for state quota-
managed species such as summer flounder, scup and black sea bass would 
be greatly complicated by the fact that each state sets different daily 
harvest limits to manage their state quotas. Presently, Connecticut 
vessels fish these federal waters only under Connecticut's harvest 
limits (there are no federal possession limits). If these federal 
waters become NY and RI state waters, our fishermen would be held to 
the most restrictive of the states' regulations, which is unfair and 
counterproductive to our agency-industry cooperative approach to the 
management of these quotas.
    Striped bass conservation will also suffer since fishing for or 
harvesting striped bass in federal waters is prohibited. Likewise, 
Connecticut statutes prohibit commercial fishing for striped bass. The 
Atlantic States Marine Fisheries Commission just last year had to cut 
daily recreational harvest limits in half due to concerns over the 
declining striped bass stock size. The waters around Block Island seem 
to be holding an unusually large proportion of the adult striped bass 
population in recent years. Converting these federal waters to state 
jurisdiction will expose these reproductive-age fish to significant 
mortality rates. The vast majority of anglers have opposed these 
changes at our public hearings on striped bass management. That is, 
they would see this not as an opportunity, but as a threat to the long 
term health of the species.
    Transfer of these federal waters to NY and RI authority would also 
complicate recreational fisheries management for some species. While 
our three states have uniform management practices for some species, we 
have not reached such agreements for other species due to the differing 
desires of anglers in each state. Connecticut DEEP Marine Fisheries 
holds public meetings and otherwise solicits public input when making 
required annual adjustments to recreational harvest limits, minimum 
size and open seasons for several species. Having productive, nearby 
federal waters fall under NY and RI jurisdiction simply complicates our 
efforts to provide the kind of opportunity anglers ask for, such as 
time of open seasons, possession limits, and the like management of 
these waters would reflect the interests of RI and NY, but not 
necessarily CT anglers.
    For these reasons, I ask that you work with the other members of 
the Connecticut congressional delegation in opposition of this 
legislation.

            Sincerely,

                                            Robert J. Klee,
                                                      Commissioner.

                                 ______
                                 

    Mr. Courtney. Thank you, Mr. Chairman.
    Long Island Sound is a tidal estuary, which borders on 
three states. It is probably one of the most densely populated 
parts of the country, in terms of that fragile ecosystem that 
people abut. And about $9 billion of economic activity takes 
place on Long Island Sound. We have the largest operating 
military operation, the Groton Submarine Base, that also 
operates there. So it is an incredible balancing act, in terms 
of trying to allow those livelihoods to continue to happen, 
along with balancing the very fragile environmental priorities 
of that region.
    Mr. Zeldin and I are allies on the Plum Island preservation 
bill, and I salute his work on that. It is an important 
environmental treasure, and we want New York to be able to 
preserve that for future generations. We also are allies in 
terms of the Long Island Sound Restoration Act, because there 
is more work to do in terms of cleaning up the water there. And 
we have a Long Island Caucus, which is bipartisan and 
bicameral, actually.
    Unfortunately, this bill was not vetted by those 
stakeholders. And, unfortunately, the state of Connecticut, 
which has 3.3 million people, is not represented today, even 
though it will have real impact in terms of our state.
    Just to start with the most egregious impact--by redrawing 
that line and putting a lot of those waters out of the Federal 
Government's domain and into the state of Rhode Island's, my 
lobstermen, by law, cannot get a non-resident permit to fish 
for lobster in Rhode Island waters. So, in the name of rolling 
back Federal Government over-regulation, the Federal 
Government, in the form of the U.S. Congress, is basically 
bankrupting people who right now are working on their boats and 
are totally collateral damage in terms of the way this 
legislation was drafted.
    Mr. Gilbert, from the Southern New England Fishermen and 
Lobstermen's Association, powerfully makes that argument. 
Again, there was no consultation with his association in terms 
of the drafting of this bill.
    There is in place, as Mr. Huffman pointed out, the New 
England Fisheries Management Council, which has kind of been 
the referee in terms of dealing with these competing interests 
that exist in the Sound, and have dealt with a number of the 
issues in terms of striped bass.
    Again, Mr. McMurray, I applaud your testimony, which I had 
a chance to read here. You took the long view, which is that 
the Long Island Sound is a precious asset, and we really have 
to be careful about balancing important commercial fishing 
interests. We have great shellfish out there now, and we have a 
lot of groundfish that people are out there selling every 
single day. But without that balance, basically everyone is 
going to be sort of put at risk. And, unfortunately, this 
legislation, as you point out, really does not appear to have 
any biological analysis in terms of backing it up. Again, I 
applaud the fact that you stepped forward today to make those 
comments.
    So, from NOAA's standpoint, I just want to maybe see if we 
could clarify the point that if this legislation were to pass, 
and that 155 square miles of sea bottom is basically ceded to 
the states of Rhode Island and New York, fishermen would 
basically be in the position where they have to get non-
resident permits from the state of Connecticut if they want to 
continue to fish in those waters, that today they are allowed 
to do, subject to Federal rules, in the EEZ. Can you answer 
that question?
    Mr. Morris. Thank you for the question, sir. Under H.R. 
3070, if the jurisdiction shifts from Federal to state, then 
fishermen who are currently active and have ease of access to 
the EEZ to participate in Federal fisheries would, if they were 
to go into those grounds again, be subject to state 
jurisdictions and state regulations to include those that you 
have cited, sir.
    Mr. Courtney. Thank you. And again, that means you have to 
basically participate in an auction as a non-resident in the 
state of New York. So, as a Rhode Island lobsterman, you are 
shut out in terms of being able to get a permit. This is 
damaging people's livelihood, and I think we need to be a lot 
more careful in terms of how we, as a Congress, treat Federal 
jurisdiction and people's rights in terms of reliance on their 
ability to make a livelihood. I yield back.
    Dr. Fleming. Thank you, Mr. Courtney. Next, Mr. Zeldin is 
recognized for 5 minutes.
    Mr. Zeldin. Thank you, Chairman. And to the witnesses here 
testifying on this legislation, Mr. Morris, Captain McMurray, 
Captain McBride, and also thank you to Mr. Courtney for being 
part of today's hearing.
    It is clear that there are important points and issues that 
are on various sides of this particular topic being discussed 
in this hearing. I look forward to working with the Ranking 
Member and Mr. Courtney and the Connecticut Delegation because 
there are--my mind is spinning with the very easy fixes to help 
address your constituents. And I want to let you know, that is 
something that is going to remain a top priority of mine, 
because it is important.
    And just like it is important for me to be able to fight 
for my fishermen and for my district, I respect your desire and 
your need to be able to fight for your constituents, your 
fishermen, and for your district. So I look forward to working 
with you, Mr. Courtney.
    I think that, while it may be clear to everyone here, for 
individuals who might just be learning about the bill for the 
first time in the days or the weeks ahead, one thing that is 
greatly important to be noted is that this does not eliminate 
the management of these fisheries. There is a change of 
jurisdiction over the management of the fisheries, but it is 
not eliminating the management all together. One point worth 
noting is that the legislation does not just open up the EEZ 
and there is no management and now we are all going to go out 
and fishermen can harvest whatever they want.
    But I wanted to ask Mr. Morris, just to touch on a point 
that Captain McBride brought toward the end of his testimony 
about his concern, which I appreciate the captain sharing, 
about any other fishery and any other fishermen, and the desire 
for those who are advocating for a fix here with the EEZ, the 
sensitivity and the desire to be able to pursue the solution 
without adversely impacting any other fishermen and any other 
fishery. What are your thoughts on that, and what can we do to 
address those concerns of the people who are supporting the 
legislation?
    Mr. Morris. Yes, sir. Thank you very much for the question.
    There are, as I noted in my oral testimony, a number of 
fisheries that occur in the area that is currently EEZ, the 
Block Island Transit Zone. In addition to striped bass, there 
are lobsters, summer flounder, scup, black sea bass, winter 
flounder, and even squid. And they are all under effective 
management.
    We can specify what the bodies are, but those that are 
under the Magnuson Act and the Atlantic Coastal Act, they are 
limited and they are managed in a very sustainable and 
cooperative way between the bodies, between NOAA Fisheries and 
fulfilling our role, as well as the Council on Coordination 
Committee. It is difficult at times, but it is successful.
    If this area were ceded to state management, there would be 
fishing mortality that occurs in there that would then have to 
be accounted under the state's part of the management, and 
there would have to be adjustments to management at the state 
level made accordingly.
    Mr. McMurray mentioned the possibility of having analysis 
beforehand that would indicate what the effects might be, and 
that could be done under a regulatory approach, rather than a 
legislative approach, in which case we would estimate that 
afterwards. Thank you, sir.
    Mr. Zeldin. Would either of the two captains like to say 
anything with regards to that point?
    Mr. McBride. Thank you. Yes, two things, anecdotally. In a 
10-year period from roughly 1990--probably closer to 2005--
before they began to enforce the Transit Zone restrictions on 
the public, we had a growth of striped bass up and down the 
East Coast because we all took measures to preserve them and 
protect them. And no one was more at the front of conservation 
than the Montauk Boatmen and Captains Association. Our history 
speaks for itself in the area.
    It is just the uniqueness of this one geographic area----
    Mr. Zeldin. Captain McBride, if you want to hold that 
thought, just for the sake of time, there is going to be 
another round of questioning.
    We will get back to the two captains so we could finish 
this important point. I yield back.
    Dr. Fleming. The gentleman yields back. Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair. Thank you for giving me 
a second chance here.
    Just to be clear, going back to the mission of the Fish and 
Wildlife Service, I just want to reiterate that I appreciate 
the value of what you do. I appreciate the huge issues we have 
on invasive species and endangered species, and that is a very, 
very important part of this mission.
    I think it is really hard, from the perspective of a Maine 
processor or a fishermen, understanding in some ways what seems 
like unfairness and redundancy here--they are subject to 
inspections by Customs, there is a FDA component to this, and 
this just seems like another layer, another charge that, as far 
as we know, has done nothing to enhance the Maine fisheries or 
protect some other species that we are concerned about. And I 
understand the one-size-fits-all issues, that there are 
problems in other places, but it is very hard to go back and 
explain to people why we have to defend this practice.
    I know it comes up sometimes about the management of the 
fisheries, and I just wanted to ask Mr. Leask to talk about 
this a little. I appreciated the video you showed us, which 
reminds us both how difficult the work you do is, but also how 
charming it is, that there are so many amazing people who go 
down and risk their lives in difficult conditions or have a lot 
of challenges in making this line of work successful.
    I served in the state legislature in the 1990s, I was 
there, and I also live in Penobscot Bay, I live on an offshore 
island of North Haven. So, I saw a lot of urchin fishermen come 
and go, and the boom and the bust in that fishery. It was a 
really challenging time, because there was money to be made for 
a while, and the fishermen wanted all the capacity they could 
possibly get. Then we realized that at one point the urchins 
were gone, and this great addition to the fisheries was not 
there.
    So, I think the fishermen, working with the legislature and 
the Maine Department of Resources, have done a phenomenal job 
of regulating the fisheries appropriately. And I think you 
mentioned that in your testimony. But there has been a pretty 
healthy comeback, and now it is a stable fishery. I am sure 
everybody would like more days, and they would certainly like 
more days in my zone than they get in your zone, but we are 
happy that we are in this place.
    If you could talk a little bit about the other kind of 
redundancy here, and that is that the Maine Department of 
Resources and the fishermen themselves are very engaged in the 
management of this fishery. I am just making this point to 
reiterate that there is not a management concern about people 
trying to sneak out more urchins than they should, because you 
cannot, frankly, get them beyond the DMR to violate the law.
    Can you talk a little bit about what you have seen happen 
in the industry, and also a little bit about the regulation 
that the DMR enforces on you.
    Mr. Leask. Sure. I am actually just out your back door. I 
dive around North Haven almost exclusively.
    Ms. Pingree. What color is your boat?
    Mr. Leask. It is white, like most of them.
    [Laughter.]
    Ms. Pingree. All right. What is the name of your boat?
    Mr. Leask. Amber Mist and November Gale.
    Ms. Pingree. Oh, yes.
    Mr. Leask. Just to be brief, our industry is heavily 
regulated. We have strict catch limits, strict days at sea. I 
am actually sacrificing a day, which is a considerable amount 
of money, to come here today. So any donations will be gladly 
accepted.
    [Laughter.]
    Mr. Leask. But in all seriousness, the industry is really 
tightly regulated. It is bouncing back really well, and we can 
probably help out California with their end of things in a few 
tricks that we have to get these urchins to do what they 
naturally do, and that is to eat and reproduce. That is all 
they do.
    In a nutshell, I can read--management of the Maine sea 
urchin fishery is a joint responsibility of Maine state 
legislature and the Maine Department of Resource, with advice 
from our sea urchin council, which I chair. Our goal is to 
develop a sustainable fishery, which we have done. We are on 
the cusp of actually adding new jobs. We are discussing right 
now, at the council level, what we are going to do about new 
entrants. We have concerns about safety, we have concerns about 
how they harvest, because we don't want to repeat the mistakes 
of the past.
    So, we are moving ahead with those things. And you can 
likely see a number of new entrants in the somewhat near 
future.
    Ms. Pingree. Thank you.
    Mr. Leask. Did I cover----
    Ms. Pingree. You did. And I just, again, want to appreciate 
that we are all very excited to see that this has become a 
viable industry again. And we know that the state and the 
fishermen have worked really hard to manage it. So, thank you.
    I yield back.
    Dr. Fleming. The gentlelady yields back. I believe we have 
finished the first round. Therefore, I now recognize myself for 
5 minutes for the second round.
    This question is for Mr. Woody. I understand the U.S. squid 
industry is currently subject to these same inspection 
requirements by the Service, even though these products are 
also destined for human consumption.
    Can you please explain to the subcommittee why a U.S. 
company that processes squid caught by U.S. fishermen off our 
own coast, and then exports that same cleaned, frozen product 
for human consumption, is subject to the same excessive fees 
and aggressive inspection requirements as products that are 
actually dangerous to the environment, or highly protected, 
such as those listed under the Lacey Act, CITES, and the 
Endangered Species Act?
    Mr. Woody. OK. Under our service regulations, under 
shellfish and fishery products, they do not fall under our 
regulations. What we have is the exemption does not apply to 
aquatic invertebrates and other animals that may be imported or 
exported for human or animal consumption. Essentially, the 
definition of shellfish or fisheries product such as squid, 
octopus, cuttlefish, land snails, sea urchins, sea cucumbers, 
they don't apply. They do not fall under that exemption, under 
our regulations.
    Dr. Fleming. But your regulations could be changed, right? 
You don't require an Act of Congress to do that?
    Mr. Woody. Our regulations could be changed, correct.
    Dr. Fleming. All right. Why not change them?
    Mr. Woody. Because we think they are sufficient right now.
    Dr. Fleming. But why? I know you think that, but why?
    Mr. Woody. Because we think what we have right now, under 
shellfish and fisheries product, under the exemptions that we 
give those particular things, we think that covers a broad 
base. Adding on these other exemptions can add on to other 
issues as well. In other words, anything possibly from wildlife 
trafficking to other invasive species coming in. We have not 
added anything on to that, under the exemptions.
    Dr. Fleming. So, you are concerned that it opens the 
floodgates to other types of critters that might be involved 
with the Endangered Species Act or----
    Mr. Woody. Potentially it opens up other smuggling avenues. 
Correct, sir.
    Dr. Fleming. OK. Why is domestic calamari from our own 
waters defined the same way as these other dangerous or 
protected products?
    Mr. Woody. It does not fall under the exemption, sir.
    Dr. Fleming. So it is the same answer, basically.
    Mr. Woody. That is correct.
    Dr. Fleming. OK. Mr. Morris, NOAA and the regional councils 
managed the domestic harvest of hundreds of metric tons of 
squid. To your knowledge, is U.S.-caught squid a dangerous 
threat to our environment, or is it protected under the ESA?
    Mr. Morris. Thank you for the question, sir. Yes, the 
domestic-caught fish and squid are sustainably harvested. They 
are under proper management and catches are set and managed at 
appropriate levels. They are not listed under the Endangered 
Species Act.
    Dr. Fleming. And they are not a danger to the environment? 
They are not invasive species or anything of that sort?
    Mr. Morris. No.
    Dr. Fleming. So, would it--and I will open this to the 
panel. Does anyone else have any comment about this? It does 
not get the same protections as shellfish, the same waiver. But 
yet in many ways, it is similar to the shellfish, in that it is 
not under the Lacey Act, it is not an endangered species, it is 
not an invasive species. Any thoughts from anyone else on the 
panel about that?
    [No response.]
    Dr. Fleming. OK, all right. Well, that is all the questions 
I have. I yield to Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman.
    Mr. Woody, I think the work you do, inspecting many of 
these products, especially those coming through the United 
States from Chile, Mexico, as you described, is very important. 
We know that there are shark finning industries in many of 
these countries, and there are all sorts of products that we 
don't want to see going through our ports and our markets. So I 
get it. I get why you do that.
    But I don't understand why, in the case of this artisan 
fishery in Maine that is destined for export, a fishery that 
has never had a problem like that, that is already inspected by 
state officials and others, why anything more than an 
occasional random inspection would be necessary. It just seems 
like dramatic overkill. And I hope that the message you are 
taking away from this hearing and this legislation today is 
that maybe you ought to take a look at that and find a better 
way to work with these folks with a little bit of common sense.
    Toward that end, I wanted to ask you about NOAA's seafood 
traceability process. You touched on it very briefly. But what 
I am wondering is, if that is fully implemented, is it possible 
that that might obviate the need for even a bill like this?
    Mr. Woody. I don't know that NOAA wants me to talk about 
that right now.
    [Laughter.]
    Mr. Huffman. Well, I do.
    Mr. Woody. Possibly. That is correct, sir.
    Mr. Huffman. Could you elaborate on that?
    Mr. Woody. If, in fact, there is going to be a system where 
you can keep track of those on a larger scale, that possibly 
could. But we would have to take a look and see how that is 
written out in the end.
    Mr. Huffman. OK. Thank you. I want to turn to Dr. Morris.
    We heard a lot in support of H.R. 3070, we heard a lot 
about how the current Block Island Transit Zone creates 
confusion, leads to frequent finds for anglers, how a nice day 
on the water fishing can turn into a nightmare if someone 
innocently and inadvertently drops a line just over this 
invisible boundary that is hard to detect for normal fishermen.
    I get that theory and that concept of why that might be a 
problem. But I also understand that, of the 54 cases of illegal 
fishing or possession of Atlantic striped bass in the EEZ since 
2013, I am told that only one occurred in the Transit Zone. I 
want to ask you about whether this scenario of a day on the 
water ruined for innocent fishermen is more theory than 
reality.
    Mr. Morris. Your information is mostly correct, sir. Of the 
Federal enforcement actions that I have information on, it is 
over the last 5 years there have been 54 notice of violations 
for striped bass, EEZ violations, only one of which has 
occurred in the striped bass transit area.
    NOAA Fisheries collaborates very carefully with our state 
partners in enforcement, and there may be state citations that 
have been handled at the state level, and not transferred to 
the Federal officials for adjudication. They are just not on my 
radar.
    Mr. Huffman. All right. Thank you. Captain McMurray, I know 
that you ran a little short on time, if I recall, but I think 
your perspective on this is very important. I wonder if you 
have anything to add to this discussion about the wisdom or the 
necessity of making this change, and what the real implications 
would be for the striped bass fishery, from your perspective.
    Mr. McMurray. Thank you for that question. There are two 
real issues, as I see them, and I think if you went out to the 
public now and did a survey, you would find the same results 
that NOAA got in 2006, that 97 percent of anglers, people that 
care about this resource, don't want to see this happen.
    The first issue is, of course, fishing mortality. I don't 
see how this will not increase fishing mortality. And nobody is 
talking about increasing fishing mortality now, we are talking 
about reducing it. Because, without a doubt, the striped bass 
resource has declined significantly.
    The second issue, as I see it, is access. What we are 
essentially talking about--at least what I am thinking we are 
talking about--is that we are allowing access to a pretty small 
group of stakeholders here, possibly at the expense of 
everybody that fishes from the beach, everybody that fishes 
near shore, everybody that doesn't have a boat big enough to 
get out there. And a lot of us don't. I mean that area is 
pretty gnarly, and you are not going to get out there on a 20-
foot boat if there is any wind.
    So, there are those two things. And I think the general 
public doesn't want this. I think we all have to understand--
and this is something that you guys don't often hear--there is 
a huge industry that thrives off of striped bass: the beach 
guys, the light tackle guys. The fly fishing industry didn't 
even exist 10 years ago, and now it is thriving. So, you really 
have to manage this resource with the entire public in mind, 
not just a small portion of it. Thank you.
    Mr. Huffman. Thank you.
    Dr. Fleming. OK. The gentleman yields back. Mr. Poliquin is 
now recognized.
    Mr. Poliquin. I want to thank you again, Mr. Chairman and 
Mr. Ranking Member, for this hearing. This is a very, very 
valuable--I really appreciate it.
    Mr. Woody, I would like to go back and ask you a few more 
questions, make sure I understand this. As we have learned from 
everyone's testimony today, sea urchins and sea cucumbers are 
not exempt like clams, lobsters, and scallops. However, over 
the past 40 years they have been treated as such. In other 
words, based on the testimony we have heard, there has been an 
increased activity in the inspections for these two types of 
wildlife where in the past it has not been so active. Is that 
correct?
    Mr. Woody. There have been--there are inspections going--
I'm trying to think. Yes, there are more inspections going on 
in the Northeast.
    Mr. Poliquin. OK.
    Mr. Woody. That is a fair statement.
    Mr. Poliquin. OK. Lobster in Maine is a thriving fishery--
about $450 million, if I am not mistaken, last year. And they 
are inspected and regulated by Mainers, same with clams. It is 
about a $19-$20 million industry that is healthy, and inspected 
and regulated by Mainers.
    Don't you think that, with all of the work that your 125 
inspectors have inspecting 180,000 crates last year, don't you 
think it makes sense to include those two little buggers, those 
cucumbers and those urchins, in the same exemption that you 
give for scallops, lobsters, and clams, such that our folks can 
go on with their lives, manage the process, and manage the 
fishery, which is healthy? Doesn't that make sense? Isn't that 
a good compromise?
    Mr. Woody. You are very convincing, sir. However, look at 
Mexico. Look what is coming up in Mexico. Separate those for 
me. We have a lot of shipments of sea urchins, sea cucumbers 
coming up in there. How do you separate those?
    Mr. Poliquin. Well, you could figure that out, I am sure. I 
can't. But, as Congressman Pingree mentioned a minute ago, we 
are much more concerned in representing our district in the 
great state of Maine--and if you have not vacationed here, Mr. 
Woody, I know you will--making sure that Mr. Leask and 
everybody else in Maine is well taken care of, such that the 
Feds don't do things they don't need to do.
    Isn't there a way that you can inspect the product coming 
in from the south of the border, and leave us alone up in 
Maine?
    Mr. Woody. Sir, do you consider all of those shipments that 
come up from Mexico and South America that don't get licensed 
and everything else, don't you consider that hurts Maine's 
industry, when those people ship things up and bring them in, 
no regulations on it, anything else, and they just move them 
through? To me, sir, that competes against what these gentlemen 
are doing.
    Mr. Poliquin. Mr. Leask, would you like to comment on that, 
sir?
    Mr. Leask. Well, I asked Mr. Woody about granting waivers, 
or possibly expediting the process. It is obvious we have a 
bottleneck here. And, frankly, I think it would be right to 
separate Mexico from Maine, because we do not have an issue 
right now, other than when it gets to JFK.
    The Department of Human Resources has law enforcement that 
monitor size limits, catch limits, so those are not exceeded. 
They strictly monitor any shipments coming in, and Customs 
does, as well. As valuable as inland fisheries are, it would 
seem that the resources there could be directed toward what is 
coming in from Mexico. That seems like a great idea. At the 
same time, seeing as Maine is well taken care of, is there a 
way to--like you and I were kind of discussing--grant the 
waivers, expedite the process?
    Mr. Woody. I hear what you are saying, but it is very hard 
to do. I only use Mexico as an example, because I can go to the 
Caribbean, same issue there. I go to Africa, what comes in from 
fisheries products, or what is labeled as fisheries products 
from over there, a lot of smuggling is tied into that. That is 
very hard to separate out Maine--and you guys do a tremendous 
job and you represent your constituents very well, both of you. 
But at the same time, for me, please understand, it is very 
hard to separate that out.
    Mr. Poliquin. Mr. Woody, I know it is hard, I bet it is 
hard, but I know you can do this. If Mr. Leask can dive down 
and harvest in the cold, dark waters of Maine, I am sure you 
folks can figure out a way to do this, so our 650 jobs in Maine 
are not penalized, sir. I am sure you can do it. Thank you.
    Mr. Woody. Thank you, sir.
    Dr. Fleming. That will have to be the last word. Next, Mr. 
Zeldin. I am sorry, excuse me. Ms. Pingree.
    Ms. Pingree. Thank you again, Mr. Chair, and thank you for 
indulging us in a second round and offering so much time to 
this topic. It is complicated and confusing, and I do 
understand the concerns about the Caribbean and Mexico.
    I appreciated Ranking Member Huffman's suggestion--of all 
the possibilities, wouldn't it be possible to do this as a spot 
check, you know, once in a while look into this?
    My understanding is that when these shipments get to JFK, a 
lot of what the inspection process is is looking at the 
paperwork. Very few of these boxes are actually opened and 
examined on the inside. So, to say that this is a vital 
inspection to figure out if something sneaks through I am not 
sure is completely true. I may have a misconception here, but 
that is the way I have understood it, is that a lot of it is 
looking up the lading and the paperwork and making sure 
everything is in line. And that does not give any of us a 
guarantee that the things that you are concerned about happen.
    I do think again--we are talking about the separation 
here--about whether this is an import into Maine for processing 
and an export from Maine. We do have some real differences that 
could be managed. My understanding is that the bulk of any 
import that comes into Maine is actually Canadian that comes 
down through when there is more available to be processed in 
Maine, and we know that they have a very good track record, 
too.
    I guess I would go back to the issue again--aren't we just 
looking at the paperwork here? We are not really opening most 
of these boxes. So, it is somewhat of a spot-check now.
    Mr. Woody. That is correct. Some we do and some we don't. I 
think the issue, too--I mean if we are still having issues--and 
again, I was not aware of any until the one you spoke of 
earlier over the weekend on this non-perishable shipment that 
went through that was supposed to be checked on Monday. But 
again, I am not hearing anything on shipments being held.
    And I go back to, Congresswoman Pingree, over the week 
there were five perishable shipments that went through just 
fine. I have heard nothing on that. So, I hear what you are 
saying, but at the same time what I am seeing is these 
shipments are going through and there is not an issue.
    Ms. Pingree. My other concern--and I will ask you, and then 
I will ask Mr. Tamaki about this--I talked to you about how to 
defend to our constituents this fundamental unfairness. And 
when someone in Maine hears that lobsters, clams, mussels, and 
scallops--combined, a much, much bigger industry, and we know 
the volume of lobsters that leave Maine, and we also know that 
there are more opportunities for some challenging things to go 
on in some of those fisheries--so I still get this stuck in my 
craw. What is the possible argument in the science here?
    I have provided your Department with University of Maine 
scientists who have analyzed this to say, just because they are 
an echinoderm--and I get it, it is a slightly different kind of 
species--but at that point we are kind of splitting hairs. It 
is a fundamental unfairness, because there is another layer of 
paperwork and there are more fees involved. And how is a 
gigantic lobster fishery--and, believe me, I don't want them 
changed, but they are not subject to all of this.
    And again, you are not the only point of inspection. We 
have Customs, we have the DMR, we have the FDA. It just seems 
so cumbersome for something that we haven't experienced 
problems with.
    Mr. Woody. Customs does not inspect exported shipments of 
wildlife going out of the United States.
    Ms. Pingree. Well, let me just stick with the science. What 
is it about the science that we cannot come to an agreement on 
that?
    Mr. Woody. We have it set up under our regulations under 
the definition, is what we have.
    Ms. Pingree. Mr. Tamaki, you were very eloquent before, and 
I know you have been a really important kind of pioneer in this 
industry, and you have others who are doing it. How much of an 
economic burden and challenge is this, not just to your 
business, but when you look collectively at this, what we hope 
is a growing industry and a good market for Maine, and 
important to the fishermen, important to the processors, how 
much of an economic challenge is this for you?
    Mr. Tamaki. To tell the truth, I cannot come up with how 
much economic challenge.
    Ms. Pingree. I am just saying--how much of an impediment is 
having to go through this to you and other businesses like 
yours?
    Mr. Tamaki. OK. The only thing that is--Fish and Wildlife 
is stopping us. U.S. Customs is always open, 24/7. But Fish and 
Wildlife is always closed. I mean they are open during regular 
business days, but holidays and after 3:00 p.m. Friday they 
leave. So, we cannot even book the shipment. That is really 
bothering me.
    And when I think about how much it would cost, sometimes we 
lose entire shipments because of that. Sometimes it goes 
through, sometimes it does not. We always have to think about 
how we can do that.
    Ms. Pingree. Well, thank you. The Chair has been very kind 
to us. I yield back what time I don't have any more, anyway.
    Dr. Fleming. I thank the gentlelady. And then, finally, Mr. 
Zeldin.
    Mr. Zeldin. Thank you, Chairman. Captain McBride, when we 
ran out of time during the first round I had to cut you off, 
but would you like to finish your thought?
    Mr. McBride. Yes. Let me finish with some of the things 
about conservation. It is, in our opinion, the people who live 
on the east end of Long Island, not a transit type of captain 
who comes out with a boat toward the fall and utilizes the runs 
of fish when they exist in the fall, that spreading out the 
fishery over our traditional grounds will reduce mortality 
because instead of 200 boats--I don't want to go into the 
geography, I will do it very quickly--on the point, at the 
elbow, where you are reaching one of the limits of the 
boundaries for striped bass within the 3-mile limit, you pile 
the boats up there, accidents happen, fights occur because one 
boat is on top of the other. If we spread them out, as we do 
historically on the other fishing grounds, the bag limit is the 
same. The mortality is the same. But we spread it out, and we 
have a more viable fishery.
    Second, the charter boat industry is a mechanism for the 
public to utilize their resource, the fish. It does not belong 
to any of us, individually, whether it is a charter boat with 
six passengers, a single boat with five fishermen on it, that 
is another method, and a head boat with up to 100 passengers on 
it, it provides a means for the public to utilize the fish, 
particularly the striped bass, in a manner in which they can 
afford.
    And these fish belong to all of us. It is not an elitist 
group. We work very hard, year after year, in the Montauk area 
to preserve our fish. What we are asking for in this Transit 
Zone--and there might be other mechanisms not to infringe upon 
the rights of some of our colleagues fishing different 
methods--is to do things like just allow striped bass fishing 
in the Transit Zone because of the anomaly. No place else--and 
we have examined this up and down the coast--does the problem 
go beyond 3 miles. Our case, it is roughly 15, 16 miles to 
Block Island from Montauk, and roughly 14, 15 miles from Block 
Island to Point Judith.
    But we do not want to do any other industry harm, and we 
hope that you gentlemen can work out a program that will 
provide New York State and Rhode Island with their historical 
fishing grounds, and be fair to all the user groups.
    Mr. Zeldin. I thank you for those comments, Captain 
McBride. You have this area of state and local waterways 
because of Block Island becoming part of EEZ and being managed 
by the Feds. This area that we are talking about, it is just 
important to reiterate that we are not advocating for there not 
to be management of fisheries in this area. We are advocating 
for the state and local waterways to be managed by the state 
and regional partners, and the decisions being made at a local 
level.
    But the fisheries still need to be managed. I think 
something that is very important for people who may just be 
learning about this bill for the first time, either today or in 
the days and weeks after this hearing, that no one is here 
advocating for, that we are pointing to this area around 
Montauk Point and Block Island and we are saying, ``OK, 
everyone can go out and catch whatever you want, keep whatever 
you want, bring as much of it as you want home.'' No one is 
advocating for that, and this bill does not do that.
    As to Mr. Courtney's points, I am looking forward to 
working with him and the Connecticut Delegation because, as has 
been stated multiple times during this hearing, Chairman, no 
one should get hurt by this proposal. As a matter of fact, 
there is a way to do this where everyone is happy. And this 
should not have any negative impact on any other fishermen, on 
fisheries. There are different ways to fish.
    As Captain McMurray is bringing up important points toward 
other types of fishermen, I look forward to working with 
Captain McMurray, as well, to find a solution to solve this 
problem you have: state and local waterways that should be 
managed by the state and regional partners, but should still be 
managed.
    And thank you again, Chairman, for having this hearing.
    Dr. Fleming. OK, the gentleman yields. I want to thank the 
witnesses today for your valuable testimony. And I want to 
thank the subcommittee staff for all their hard work and 
research that they do in preparing for things.
    Under Committee Rule 4(h), the hearing record will be held 
open for 10 business days for any responses that you may 
provide to additional questions that we may submit to you in 
writing.
    If there is no further business, then without objection the 
subcommittee stands adjourned.

    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
